<html>
<title> - MANUFACTURERS OF FEMA TRAILERS AND ELEVATED FORMALDEHYDE LEVELS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    MANUFACTURERS OF FEMA TRAILERS AND ELEVATED FORMALDEHYDE LEVELS 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 2008

                               __________

                           Serial No. 110-132

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

47-995 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 9, 2008.....................................     1
Statement of:
    McGeehin, Michael, Director, Environment Hazards and Health 
      Effects, National Center for Environmental Health, Centers 
      for Disease Control and Prevention.........................    66
    Shea, Jim, chairman, Gulf Stream Coach, Inc.; Steve Bennett, 
      president, Pilgrim International, Inc.; Ronald J. Fenech, 
      president, Keystone RV, Inc.; and Peter Liegl, president 
      and CEO, Forest River, Inc.................................   117
        Fenech, Ronald J.........................................   134
        Liegl, Peter.............................................   141
        Shea, Jim................................................   117
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................    94
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    17
    Fenech, Ronald J., president, Keystone RV, Inc., prepared 
      statement of...............................................   136
    Liegl, Peter, president and CEO, Forest River, Inc., prepared 
      statement of...............................................   143
    McGeehin, Michael, Director, Environment Hazards and Health 
      Effects, National Center for Environmental Health, Centers 
      for Disease Control and Prevention, prepared statement of..    69
    Sali, Hon. Bill, a Representative in Congress from the State 
      of Idaho, prepared statement of............................   181
    Shea, Jim, chairman, Gulf Stream Coach, Inc., prepared 
      statement of...............................................   119
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, information concerning formaldehyde......    82
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   177
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California:
        Staff reports............................................    20
        Prepared statement of....................................     5


    MANUFACTURERS OF FEMA TRAILERS AND ELEVATED FORMALDEHYDE LEVELS

                              ----------                              


                        WEDNESDAY, JULY 9, 2008

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Cummings, Kucinich, Davis 
of Illinois, Tierney, Clay, Watson, Murphy, Sarbanes, Welch, 
Davis of Virginia, Burton, Shays, Souder, Issa, Bilbray, Sali, 
and Jordan.
    Also present: Representatives Donnelly and Lampson.
    Staff present: Phil Barnett, staff director and chief 
counsel; Kristin Amerling, general counsel; Karen Lightfoot, 
communications director and senior policy advisor; Greg Dotson, 
chief environment counsel; Erik Jones, counsel; Earley Green, 
chief clerk; Jen Berenholz, deputy clerk; Caren Auchman and 
Ella Hoffman, press assistants; Zhongrui ``JR'' Deng, chief 
information officer; Leneal Scott, information systems manager; 
Rob Cobbs and Miriam Edelman, special assistants; Mitch Smiley, 
staff assistant; Lawrence Halloran, minority staff director; 
Jennifer Safavian, minority chief counsel for oversight and 
investigations; Keith Ausbrook, minority general counsel; Ellen 
Brown, minority senior policy counsel; Larry Brady and John 
Cuaderes, minority senior investigator and policy advisors; 
Benjamin Chance, Adam Fromm, and Todd Greenwood, minority 
professional staff members; Patrick Lyden, minority 
parliamentarian and member services coordinator; Brian 
McNicoll, minority communications director; and Molly Boyl.
    Chairman Waxman. The committee will please come to order.
    Today the committee is holding its second hearing on 
formaldehyde in FEMA trailers. A year ago the committee 
examined how FEMA responded to reports that the families living 
in Government trailers were being exposed to hazardous levels 
of formaldehyde. Our hearing revealed that the FEMA staff out 
in the field said that they needed to test these trailers so 
the dangerous levels of formaldehyde would not adversely affect 
the families living in these trailers, but FEMA, itself, in 
Washington refused to do that. One FEMA lawyer directed: ``Do 
not initiate any testing. Once you get results and should they 
indicate some problem, the clock is running on our duty to 
respond.''
    Well, what we learned at that hearing outraged Americans 
all across the country. FEMA had a duty to protect families 
living in its trailers and it failed them. I expect today's 
hearing will also generate a sense of outrage.
    The largest supplier of FEMA trailers by far was a 
manufacturer named Gulf Stream. In the weeks after Hurricane 
Katrina struck, Gulf Stream received contracts from FEMA worth 
more than $500 million to supply over 50,000 trailers for 
displaced residents of the Gulf Coast.
    FEMA failed by ignoring the dangers of formaldehyde and 
resisted testing. Gulf Stream's problem is different. The 
company did test trailers after hearing the first reports of 
high formaldehyde levels. It found pervasive formaldehyde 
contamination in its trailers and it didn't tell anyone.
    The committee received thousands of pages of internal 
documents from Gulf Stream. The documents show that Gulf Stream 
regarded the high levels of formaldehyde in its trailers as a 
public relations and legal problem, not a public health threat.
    There is a confusing array of formaldehyde standards used 
by Federal agencies. Here are some of the key numbers:
    Ten to thirty parts per billion is the level of 
formaldehyde found in most homes. Exposure at this level does 
not cause acute health effects like burning eyes, shortness of 
breath, or nausea.
    A hundred parts per billion is the level at which acute 
health effects begin to appear in healthy adults. The Centers 
for Disease Control, the Environmental Protection Agency, the 
Consumer Products Safety Commission, the National Institute of 
Occupational Safety and Health, and the World Health 
Organization all recognize 100 parts per billion as a level 
that can cause acute adverse health effects. Of course, if it 
is a vulnerable individual like a child or an elderly person, 
or somebody who is chronically ill, they can experience effects 
even below this level.
    Five hundred parts per billion is the level at which OSHA 
requires medical monitoring of employees. This is an old 
standard adopted during the first Bush administration.
    Seven hundred fifty parts per billion is the maximum 
workplace exposure level allowed by OSHA. It is also an old 
standard.
    Nine hundred parts per billion is an EPA standard for 
hazardous response teams of industrial workers. EPA says that 
no one should be exposed to more than 900 parts per billion for 
more than 8 hours in a lifetime.
    And here's what Gulf Stream found. Over 2 years ago, it 
tested 11 occupied trailers. Every single trailer had levels at 
or above 100 parts per billion, the level at which acute health 
effects begin to occur. Four of the trailers had levels above 
500 parts per billion, the level at which OSHA requires medical 
monitoring. Gulf Stream also tested nearly 40 unoccupied 
trailers. These were trailers that were sitting in FEMA lots 
waiting to be given to displaced families. Over half of these 
trailers had formaldehyde levels above 900 parts per billion, 
the level that EPA says no one should ever be exposed to more 
than once in a lifetime. Several had levels over 2,000 parts 
per billion. One had levels over 4,000 parts per billion.
    Gulf Stream never told any family living in its trailers 
about these test results. The company did spend a month 
carefully crafting a letter to FEMA about the test results. The 
letter told FEMA there was no problem in Gulf Stream trailers. 
It said: ``Our informal testing has indicated that formaldehyde 
levels of indoor ambient air of occupied trailers fall below 
the OSHA standard of 750 parts per billion.''
    Gulf Stream did not tell FEMA that all 11 occupied trailers 
had levels above 100 parts per billion. It did not tell FEMA 
that 4 of the 11 occupied trailers had levels above 500 parts 
per billion, and it did not tell FEMA that over half of the 
unoccupied trailers had levels far in excess of 750 parts per 
billion.
    Gulf Stream did say that it would share its testing results 
with FEMA, but, of course, FEMA didn't want to know and 
apparently never asked for those results.
    The press asked Gulf Stream about its formaldehyde levels. 
Gulf Stream retained a Washington public relations firm, Porter 
Novelli, and spent days crafting a statement. The statement 
read: ``We are not aware of any complaints of illness from our 
many customers of travel trailers over the years, including 
travel trailers provided under our contracts with FEMA.''
    Gulf Stream did not tell the media that in March 2006, a 
month before Gulf Stream released its statement, an occupant of 
a Gulf Stream trailer in Louisiana told the company, ``There is 
an odor in my trailer in Louisiana that will not go away. It 
burns my eyes. I am getting headaches every day. I have tried 
many things, but nothing seems to work. Please, please, please 
help me.''
    The FEMA contract was lucrative for Gulf Stream. In fact, 
the company's top executives saw their compensation double to 
over a million per year in 2005 and 2006. But revenue growth 
does not justify the conduct we have found. Gulf Stream had 
results that showed its trailers were a public health threat 
and the company never told the families living in its trailers.
    The company also examined the conduct of three other 
trailer manufacturers. One of the companies, Pilgrim, 
apparently took the FEMA approach. Despite widely publicized 
reports of dangerous formaldehyde levels in FEMA trailers, 
Pilgrim never conducted any testing at all. The other two 
companies, Forest River and Keystone, did not test any trailer 
purchased by FEMA, but they did do some limited testing of 
other trailers and found high levels. In one case, a contractor 
hired by Forest River reported finding formaldehyde levels of 
over 1,500 parts per billion in a trailer. The contractor told 
the company it should post signs on the outside of the unit 
stating: ``Hazardous, do not enter.'' And, like Gulf Stream, 
these manufactures did not tell the public or FEMA about their 
test results.
    My staff has prepared an analysis of the evidence before 
the committee, and at the appropriate time I will ask that the 
analysis and the documents it cites be made part of the hearing 
record.
    What this hearing will show is that no one was looking out 
for the interests of the displaced families living in FEMA 
trailers. FEMA failed to do its job, and the trailer 
manufacturers took advantage of the situation.
    Our committee has held many hearings on waste, fraud, and 
abuse. In one sense today's hearing can be looked at as another 
example of Government procurement gone astray. The taxpayers 
paid $2 billion for trailers that now have to be scrapped for 
junk. But in this case, the health of thousands of vulnerable 
families was jeopardized.
    During today's hearing the trailer manufacturers will be 
asked hard questions, and I think they understand this. But I 
also want them to know that I appreciate their cooperation with 
the committee and their willingness to appear voluntarily.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. I would like to ask unanimous consent that 
the staff report, ``Trailer Manufacturers and Elevated 
Formaldehyde Levels,''----
    Mr. Davis of Virginia. Mr. Chairman, we would also ask 
unanimous consent that the minority staff analysis be put in 
the record, as well.
    Chairman Waxman. We have no objection to your unanimous 
consent request.
    Mr. Davis of Virginia. We have none to yours.
    Chairman Waxman. And let me further ours that we want the 
documents, as well, that the report refers to be made part of 
the record.
    Mr. Souder. Mr. Chairman, I have a concern about the 
documents that were and would object to the documents all being 
inserted that were provided to the committee without having a 
further discussion about whether all those documents need to be 
released. Many of them contain private information.
    Chairman Waxman. Well, we will withhold all the unanimous 
consent requests and then see if we can offer it at a later 
time.
    Mr. Davis, I want to recognize you for an opening 
statement.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    As the third anniversary of Hurricane Katrina's landfall 
approaches, we have the opportunity to focus oversight 
attachment non disaster preparedness and effective response. 
Katrina still has important lessons to teach about emergency 
shelter and longer-term housing for disaster victims.
    The committee's 2-year investigation into formaldehyde in 
FEMA travel trailers could yield important information about 
the need for clearer purchase requirements, better product 
safety standards, effective trailer storage practices, and a 
more rapid coordinated response to public health issues. But by 
narrowly focusing today on four trailer manufacturers, the 
committee risks missing broader causes of variable potentially 
toxic air quality in emergency housing units. The problem was 
and remains confusion among Federal agencies, not some 
conspiracy by trailer makers.
    As we learned from testimony and exhibits at our hearing on 
these issues a year ago, FEMA lawyers advised against a 
proactive response to questions about formaldehyde raised by 
the occupants and by the trailer vendors in 2006. To this day, 
far more confusion than clarity emerges from any discussion of 
relevant formaldehyde exposure standards. Published guidelines 
on exposure under various circumstances, durations, 
temperatures, and atmospheric conditions range from eight parts 
per billion to one thousand parts per billion, with nine 
standards in between. This chart here illustrates that.
    For the record, Gulf Stream went to FEMA for guidance when 
they uncovered problems. They didn't cover it up from their 
customer. They went to the customer. It is FEMA--who is not 
here, unfortunately, and ought to be answerable for the results 
in this case--that didn't want to make an issue of this.
    The closest thing to a standard for travel trailers is one 
set for larger manufactured housing units by the Department of 
Housing and Urban Development at 400 parts per billion. There 
isn't even agreement on the appropriately validated testing 
methodologies to determine how to measure indoor formaldehyde 
levels that might be elevated above whatever standard is being 
used.
    The Federal agency witnesses who might help explain this 
Formaldehyde Tower of Babel aren't here today. FEMA is focusing 
all its attention on Midwest flood relief. The Occupational 
Safety and Health Administration, the Environmental Protection 
Agency, the National Institute of Occupational Safety and 
Health, the Consumer Product Safety Commission, and HUD also 
have information relevant to our discussion this morning. But 
they were only invited to participate late last Thursday, as 
Federal offices were closing for the holiday weekend. They 
declined to participate without more time to prepare.
    We should have actually taken this hearing and moved it so 
we could have had everyone involved here and had a discussion 
over what these standards should have been and what happened 
and hear how the Federal Government, who I think has the 
largest culpability in this, messed this up.
    That is unfortunate, because those agencies could help us 
interpret results from multiple Government-sponsored tests of 
occupied and unoccupied FEMA trailers and component materials. 
The test data suggests some wood products obtained from new 
sources, including China, yielded higher than expected 
formaldehyde readings. Under pressure to meet emergency trailer 
production demand, some of that wood may have been put into 
trailers before the normal off-gassing could occur. Poor 
ventilation during storage and use, particularly in hot 
climates, then trapped and concentrated gases that might 
otherwise leach off harmlessly.
    So what happens to a trailer after it is manufactured may 
have as much to do with its subsequent safety as the inclusion 
of unregulated wood products in the first place. Remember, 
formaldehyde is a widely used chemical in consumer products. It 
is also the natural byproduct of many natural processes, like 
combustion, and a constant element of basic metabolic 
functions. It is in our bloodstream. Each of us releases some 
formaldehyde in this room when we exhale.
    Eliminating formaldehyde isn't the issue. The goal is to 
keep sustained formaldehyde exposure below the levels suspected 
to cause health effects. According to some groups that may be 
100 parts per billion or less for most people.
    So where do FEMA trailers score? According to data recently 
released by the Centers for Disease Control and Prevention, the 
average level of formaldehyde in occupied trailers fell between 
72 and 91 parts per billion--72 and 91. Our staff did some 
random tests around the Capitol with a hand-held meter and we 
got a reading of 80 parts per billion right next to this 
committee anteroom. But some trailers tested much higher, some 
lower.
    Since the CDC tests didn't account for any contribution 
from background levels like those we found here, it is even 
less clear how much formaldehyde came from the wood in the 
trailers. That leaves trailer occupants already victimized by 
one storm caught in a legal tempest of post-Katrina political 
scapegoating, bureaucratic finger-pointing, and litigation. 
Once again, the committee risked being used as a discovery 
proxy for plaintiffs suing companies called to testify before 
us, and that is wrong. Instead, we should be asking FEMA why 
contract requirements for habitable mobile units weren't more 
specific, why inspection procedures weren't consistent, and why 
health concerns couldn't trigger standardized testing and, 
where necessary, prompt remediation.
    We should be asking Federal science and health agencies how 
to establish and measure workable standards for formaldehyde 
exposure in realistic settings so that this sad event never 
occurs again.
    We will have the opportunity today to ask representatives 
of the travel trailer industry whether they will be able or 
willing to ramp up production to meet emergency demand when 
FEMA calls again. I hope their answer doesn't mean we will have 
even fewer options to meet critical housing needs after the 
next inevitable disaster.
    Thank you.
    [The prepared statement of Hon. Tom Davis follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you, Mr. Davis.
    Let me ask unanimous consent that Representatives Donnelly 
and Lampson be permitted to join us at today's hearing and to 
ask questions after all members of the committee have had that 
opportunity.
    Without objection, that will be the order.
    Mr. Souder, you had some reservations about the documents 
being put into the record. Let me just make a unanimous consent 
request that the staff minority and majority reports be made 
part of the record, and we will continue to talk to you about 
the documents.
    Mr. Souder. Thank you for your consideration.
    Chairman Waxman. Without objection, that unanimous consent 
will be agreed to.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. We will, without objection on questions, 
proceed with our first witness with a 10-minute round 
controlled by the Chair and a 10-minute round controlled by the 
ranking member, and then for all other witnesses, including the 
second panel, we will go back to the 5-minute rule.
    Without objection, that will be agreed to.
    Our first witness today is Dr. Michael McGeehin. Dr. 
McGeehin is the Director of Environmental Hazards and Health 
Effects Division of the National Center for Environmental 
Health within CDC. Dr. McGeehin has worked with CDC for nearly 
30 years focusing on issues related to environmental health.
    Dr. McGeehin, we are pleased to welcome you to our 
committee hearing today. It is it practice of this committee 
that all witnesses that testify before us do so under oath, so 
please rise.
    [Witness sworn.]
    Chairman Waxman. The record will indicate that the witness 
answered in the affirmative.
    Your prepared statement will be in the record in its 
entirety. We would like to ask you to proceed and stay as close 
to 5 minutes as you can. We will run the clock. It will be 
green for 4 minutes. It will turn orange for 1 minute, and then 
red when the time is up. When we see the red light, we would 
like to ask you to see if you can conclude at that point.

 STATEMENT OF MICHAEL MCGEEHIN, DIRECTOR, ENVIRONMENT HAZARDS 
 AND HEALTH EFFECTS, NATIONAL CENTER FOR ENVIRONMENTAL HEALTH, 
           CENTERS FOR DISEASE CONTROL AND PREVENTION

    Mr. McGeehin. Good morning Chairman Waxman, Mr. Davis, and 
other distinguished members of the committee. Thank you for the 
opportunity to be here today.
    I am Dr. Michael McGeehin, Director of Centers for Disease 
Control and Prevention's Division of Environmental Hazards and 
Health Effects in the National Center for Environmental Health. 
My testimony today will focus on the results of CDC 
investigations related to FEMA-supplied temporary housing units 
following Hurricane Katrina. It will focus on two particular 
studies: the final report of the formaldehyde levels in FEMA-
supplied travel trailers and the Lawrence Berkeley National 
Laboratory Interim Volatile Organic Compound Report Final 
Occupied Trailer Study.
    From December 21, 2007, to January 23, 2008, CDC conducted 
testing to establish levels of formaldehyde in occupied FEMA-
supplied travel trailers and mobile homes in Louisiana and 
Mississippi. CDC randomly selected 519 trailers and mobile 
homes for testing. These units represented a cross-section of 
the trailer types and manufacturers most frequently used by 
FEMA in the Gulf Coast. Interim results were announced in 2008, 
and a final report was released on July 2nd. The final report 
included additional analyses of data such as temperature, 
humidity, and ventilation, but did not change the conclusions 
and recommendations from those in the interim report.
    The average levels of formaldehyde in all the travel 
trailers and mobile homes tested was 77 parts per billion. CDC 
concluded from the study that: one, formaldehyde levels found 
in some trailers and mobile homes could affect the health of 
residents; travel trailers had significantly higher average 
formaldehyde levels than mobile homes; temperature, humidity, 
trailer type, and brand, keeping windows open, and the presence 
of mold were associated with formaldehyde levels; and the 
levels measured likely under-represented the exposure, since 
levels were likely higher when the trailers were first issued 
and during warmer months.
    CDC recommended that FEMA relocate residents before the 
weather became hot, with priority based on those experiencing 
symptoms, children, the elderly, those with chronic diseases, 
and persons living in trailer types that had higher 
formaldehyde levels.
    The Lawrence Berkeley Report, CDC hired Lawrence Berkeley 
National Laboratories to study indoor emissions of volatile 
organic compounds, including formaldehyde, in four vacant FEMA-
supplied travel trailers. The study looked at air levels for 
the whole trailer and gases released from specific component 
parts of the trailers such as the walls, floors, ceilings, 
tables, and cabinets. After Lawrence Berkeley and CDC took 
measurements of air inside the trailers at FEMA's Purvis, MS, 
storage yard, CDC staff then took each trailer apart, 
collected, packaged, and shipped the parts to the Lawrence 
Berkeley National Labs, where laboratory staff tested the parts 
and determined the type and extent of VOCs that each part 
emitted.
    The four trailers tested were Pilgrim, International; Gulf 
Stream Coach Cavalier; Four Industries Dutchman; and Coachman's 
Spirit of America. Analysis at the LBNL Labs found 33 VOCs, 
volatile organic compounds, in the air of the trailers. Of 
those, only formaldehyde, phenol, and TMPDDIP, a substance used 
to make plastic, were found at higher levels in trailers than 
commonly found in site-built or manufactured homes. Neither 
phenol nor TMPDDIP were found at levels that are considered to 
be health hazards.
    LBNL found that the amount of formaldehyde given off by 
each of 44 of the 45 component parts that were tested were 
usually no higher than that given off by similar materials used 
in site-built or manufactured homes; yet, measurements inside 
each of the four trailers before they were disassembled 
revealed formaldehyde levels that were higher than those 
normally found in site-built or manufactured homes. This may be 
because the trailers used more composite wood products, have 
more composite wood products in a smaller space, or let in 
fresh air, or a combination of all these factors than the site-
built or manufactured homes.
    While the results of this study cannot be generalized to 
the entire fleet of FEMA-supplied travel trailers because of 
the small sample size, CDC's study of four travel trailers 
provides information to help guide future research to 
understand the effectiveness of using materials that emit lower 
levels of formaldehyde during construction and increasing the 
ventilation rates in the trailers.
    That is a summary of the two major studies that we have 
done. We have ongoing work and some future work that we will be 
doing with Lawrence Berkeley that I will be happy to talk about 
during the questions.
    I thank you for the opportunity to present this information 
to you today. We recognize that more needs to be done to 
understand the health and safety issues for all the people 
living in trailers and parks and mobile homes, both in FEMA 
temporary housing and in other units bought commercially.
    CDC has initiated discussions with FEMA and HUD on these 
issues. Since some trailer types had relatively low levels, we 
believe that construction practices are available that could 
ensure safe and healthy conditions. We hope to provide 
technical input to help achieve that kind of housing for all 
Americans who live, learn, and work in these units.
    I would be happy to answer any questions.
    I would like to add, Mr. Chairman, that when I flew up here 
I flew up with your colleague, Congressman John Lewis in the 
seat next to me, and I told him that I was going to be 
appearing before this committee, and he said, well, that is 
good. And I said, well, perhaps. And he said, I am sure they 
will treat you kindly. So I kind of consider that a promise. 
[Laughter.]
    [The prepared statement of Mr. McGeehin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. That is our intention to treat you kindly, 
because all we want to do is get the facts.
    I will start off the questions.
    Dr. McGeehin, I want to ask you about these regulatory 
standards, because there are a lot of different standards that 
are out there that apply to formaldehyde. According to the 
Centers for Disease Control and Prevention, outside air 
typically has formaldehyde levels of two or three parts per 
billion; is that right?
    Mr. McGeehin. That is what the information shows.
    Chairman Waxman. OK. And we have a chart that we are going 
to put on the screen that shows the outdoor air, but 
conventional homes, most homes have formaldehyde levels that 
typically range from 10 to 30 parts per billion; is that 
correct?
    Mr. McGeehin. In the more recent studies, yes, sir.
    Chairman Waxman. And we could add that to the chart. Busy 
city streets generally have formaldehyde levels that range from 
20 to 40 parts per billion; is that right?
    Mr. McGeehin. If you are downtown on a corner and you 
basically are at gridlock, you can see those sorts of levels, 
yes, sir.
    Chairman Waxman. The next level I want to ask you about is 
100 parts per billion. At this level, some people can suffer 
acute health effects like burning eyes, shortness of breath, 
and nausea. Is that an accurate statement?
    Mr. McGeehin. Yes, sir. There are a number of studies that 
have shown that sensitized individuals have those symptoms, can 
have those symptoms at levels of 100 parts per billion.
    Chairman Waxman. How about people who are not sensitized?
    Mr. McGeehin. The studies show that sensitized individuals 
can. Non-sensitized individuals can have those symptoms. I 
mean, it is possible that they could have symptoms at that 
level. That is not what the studies have shown. That would be 
at higher levels.
    Chairman Waxman. OK. CDC is not the only agency that 
regards 100 parts per billion as a potentially dangerous level. 
The Environmental Protection Agency and the Consumer Product 
Safety Commission have also identified 100 parts per billion as 
a level at which negative health effects can occur. And the 
World Health Organization has also issued guidelines for 
formaldehyde saying that in non-occupational settings people 
should not be exposed to formaldehyde at 100 parts per billion 
for more than 30 minutes; isn't that correct?
    Mr. McGeehin. That is true, sir.
    Chairman Waxman. Now, I want to ask you about the test 
results that Gulf Stream found over 2 years ago when it tested 
nearly 50 FEMA trailers. Gulf Stream was the largest supplier 
of FEMA trailers. In fact, they received a contract worth more 
than $500 million to provide 50,000 trailers to FEMA. First 
Gulf Stream tested 11 occupied trailers and it found that every 
occupied trailer had levels above 100 parts per billion. Four 
of the trailers, nearly 40 percent of those tested, had levels 
above 500 parts per billion. At that level, Federal regulations 
required medical monitoring of workers.
    Dr. McGeehin, were you aware of these findings?
    Mr. McGeehin. No, sir, I was not.
    Chairman Waxman. As a public health expert, do these 
findings concern you? Should families be living in trailers 
with formaldehyde levels above 100 and 500 parts per billion?
    Mr. McGeehin. Sir, we would recommend that families living 
in trailers with above 100 parts per billion, 500 parts per 
billion, that they be offered alternative housing.
    Chairman Waxman. Gulf Stream conducted this testing in 
March 2006, more than 2 years ago, and yet the company never 
told the families living in these trailers. Do you think that 
families should have been informed about formaldehyde risks?
    Mr. McGeehin. Sir, I think that people should be aware of 
the risks of where they are living, yes. I am a firm believer 
that people should be aware of any information that we have 
that could affect their health.
    Chairman Waxman. If you were living in one of these 
trailers for 2 years after the company knew that it might have 
been formaldehyde levels of over 100 and maybe 500 parts per 
billion, what would your reaction be if they hadn't told you 
about it?
    Mr. McGeehin. As a scientist or as a resident?
    Chairman Waxman. Give me either one.
    Mr. McGeehin. Well, sir, I would think that if we have 
information that people may be exposed to levels of 
formaldehyde that may cause symptoms in sensitized adults and 
may have an effect on children who are growing up in the 
environment, that we should share that with the residents, and 
I think that it should be shared in a way that they understand 
what we are talking about and so they can make an informed 
decision.
    Chairman Waxman. OK. Gulf Stream also tested unoccupied 
trailers. The levels it found were even higher. Nearly half of 
the trailers had levels over 900 parts per billion. EPA says 
that no one should be exposed to that level more than once in a 
lifetime. One trailer had levels above 4,000 parts per billion. 
Do you believe that these are dangerous levels of formaldehyde?
    Mr. McGeehin. I think that some of those levels, sir, just 
about every person would have symptoms of upper respiratory 
irritation, and those would be levels that we would be 
concerned about. Yes.
    Chairman Waxman. Well, Gulf Stream never told FEMA that the 
unoccupied trailers had such high levels of formaldehyde. The 
result was that FEMA continued to put these trailers into 
service. Thousands of unoccupied Gulf Stream trailers were 
given to families after Gulf Stream knew they contained these 
incredibly high levels of formaldehyde. I suppose once they are 
occupied they can open the windows and the formaldehyde levels 
would be reduced, but, given their findings, would that concern 
you that FEMA was never informed, that families weren't 
informed, FEMA was never informed?
    Mr. McGeehin. Again, sir, I would have to go back to what I 
had said earlier. I think that if we have information that may 
affect people's health, that we should share that information 
with the people. I don't know what the correspondence was that 
went back and forth--and you and all the committee knows more 
about that than I do--between FEMA and the various trailer 
manufacturers. I am not aware of that.
    Chairman Waxman. OK. Well, we learned a year ago that FEMA 
failed the families in the Gulf Coast. They refused to test the 
trailers because they didn't want to know the results and then 
have to take action to protect these families. I think that is 
a shameful failure of Government. Today we are learning that 
the largest maker of travel trailers did some testing and did 
know that its trailers had dangerously high levels, but it 
didn't warn anyone, and I think that is also a shameful 
failure.
    I have 3\1/2\ minutes, and I am going to reserve that and 
now recognize Mr. Davis.
    Mr. Davis of Virginia. Mr. Chairman, I am going to start 
with Mr. Souder, yield him as much time as he may consume.
    Mr. Souder. I thank the ranking member.
    I would prefer my questions stick with the science and that 
we don't speculate. Politicians speculate, lawyers speculate, 
but we need to focus on the science.
    There were some assumptions in the questions there that 
were not science. Gulf Stream did a desiccator test, which is 
not an accurate test, more of a snapshot, just like taking a 
formaldehyde tester in this room is a snapshot, not science, 
and then attempted to raise that question with FEMA. They went 
beyond the call of duty to do that, but it is not an accurate, 
scientific test, and it was presented to you as though they had 
scientific evidence rather than a snapshot, which still should 
have been followed up on but, nevertheless, is different than 
having a control group or an actual test with that.
    Now, I have had some correspondence, both verbal through my 
staff and in the two hearings at Homeland Security as well as 
the previous one here, with Centers for Disease Control. I want 
to ask on the record why there was not a control group at the 
time to see how much was related to other things in the area, 
as opposed to the trailer. The response we got from CDC was it 
was compared to the national rather than what was happening at 
Katrina at the time or the region. Is that scientific----
    Mr. McGeehin. Yes, sir.
    Mr. Souder [continuing]. To not have a control group?
    Mr. McGeehin. Yes, sir. I mean, you wouldn't have a control 
group on that, I think. What we were asked to do was to look at 
the various types of various temporary housing units that were 
being used and see what the formaldehyde level was. The ambient 
air has been measured in many parts of the country by a number 
of different researchers and has been found to be consistently 
at two, three, and four parts per billion.
    One other thing about formaldehyde that I think is 
important to remember, and that is that no scientists that have 
looked at formaldehyde consider ambient air a driver of indoor 
formaldehyde levels.
    Mr. Souder. Let me ask you this question. Your office this 
morning said that you had no reason to question the Tulane 
study that studied the ambient formaldehyde air levels within 
site-built homes in Louisiana that averaged 370 parts per 
billion, more than four times that found in FEMA trailers. That 
would suggest, since your office is aware of that, that you 
know there are differences in Louisiana than elsewhere, because 
I don't believe that site-built homes are testing that high 
nationally. And that, furthermore, you are aware that in the 
Hancock study by your office in Mississippi that there was no 
measurable difference between those people who were in trailers 
and were in other. That might suggest that other phenomena were 
occurring other than just the trailers.
    Mr. McGeehin. Sir----
    Mr. Souder. You have two studies----
    Mr. McGeehin. Right.
    Mr. Souder [continuing]. That suggest that the non-trailers 
had higher levels, or at least equivalent levels.
    Mr. McGeehin. Can I answer?
    Mr. Souder. Yes.
    Mr. McGeehin. The second study, the Hancock study, did not 
look at exposure. It was tremendously handicapped by the 
absolute destruction of so many medical records. We did not 
have a base on which we could compare rates, so we were able to 
do what we could in what is called an EpiAid investigation, 
which is led by a trainee and is conducted in a 3-week period 
of time. With that in mind, as a secondary objective, it did 
look at whether or not we would see a difference in the 
children's respiratory symptoms, those having reported living 
in trailers and those that did not live in trailers, and we did 
not see a difference.
    Do I attribute that at all to formaldehyde levels? I do 
not.
    The first study that you talked about, the Leamer study, I 
have reviewed that study and it appears to be a well-done 
study. It used the NIOSH sampling method that we used, which is 
the gold standard sampling method. It was slightly different 
than the one we used, but it was the NIOSH method. Its results 
were well reported, I thought. It was a well-written article. 
And its conclusions were, again, having nothing to do with 
ambient air outside in Louisiana. The conclusions were--and I 
am doing this from memory, but the conclusions were along the 
lines of, we need to increase the ventilation in these homes, 
we need to look at what furniture products and wood products 
are being used in these homes. Its conclusions were strikingly 
similar to the conclusions that came out of our occupied study.
    So when I was asked to review the Leamer study I found that 
it was a well-done study and well written and that its 
conclusions were justified.
    Now, if you were to ask me why did that study find elevated 
levels of formaldehyde in those homes when many studies at the 
same time around the country did not, I do not have an answer 
for that.
    As you suggested in your opening statement and as I 
responded to Chairman Waxman, I am going to stick to the 
science. I did not know what the correspondence was between the 
manufacturers and FEMA so I didn't comment on that, and so I 
don't know the answer, Congressman, as to why those levels were 
higher. But I will tell you that the science will tell you that 
ambient air is not a driver of formaldehyde in indoor 
environments.
    Mr. Souder. Well, let me ask you a couple of other 
questions, because in your testimony you suggested that some of 
the things here are concentration; in other words, there has 
been this mis-notion that somehow, like, these manufacturers 
spray formaldehyde on things. The products they put in, it's 
not unique to a trailer. It is unique to size and the wood and 
the wood quality, which we are debating.
    Now, in a site-built house or a manufactured home, you said 
that the thing which we learned apparently, at least, from this 
one study different in this particular environment, and you 
don't know why. It could be heat. It could be the number of 
people in it. It could be other patterns that occur in the 
house such as cooking, the intensity. Would you not think, 
based on your own statement, that, for example, when you put a 
new kitchen in, because much of this is cupboards, depending on 
whether it has veneer or vinyl, can quadruple the parts coming 
off of a particular piece? When you put a new kitchen in a 
house, for a brief period until it dissipates, that kitchen 
area may have higher levels of formaldehyde?
    When you put new carpet in a room, particularly if it is a 
smaller bedroom, you are going to go up and down, that this is 
not an uncommon thing even everywhere, including in our own 
offices, including elsewhere? It is not unique to trailers 
other than that they are small, and any alternative housing 
that we would use, such as a tent, a small wood shelter, unless 
it uses pure, natural wood with no adhesive, with no repellant, 
the smaller the area and the newer it is, the greater problem 
you are going to have?
    Mr. McGeehin. Absolutely. The component parts are what lead 
to formaldehyde. In my old house I brought this desk in and I 
put it together, and it was this beautiful desk that was 
perfect for the room, and I remember smelling the formaldehyde 
as I was unpacking it, which means at that time I was dealing 
with formaldehyde of at least above 500 parts per billion. So 
what you bring into a house can definitely affect the 
formaldehyde levels. Absolutely true.
    Mr. Souder. I also want to establish for the record you 
said NIOSH is the gold standard. Is it true that their plus or 
minus is 19 percent?
    Mr. McGeehin. I don't know what their numbers are, but 
NIOSH is the gold standard. And if you look at the literature 
on the measurement of formaldehyde for all of the studies, they 
almost invariably use the NIOSH standard.
    Mr. Souder. I would like to insert into the record the 
formaldehyde on the NIOSH standards. The reason is because when 
we start to get down to really fine lines here, those 
variations become very significant.
    We will reserve the balance of the time. I yield back.
    Mr. Davis of Virginia. How much time do we have, Mr. 
Chairman.
    Chairman Waxman. You have 1:47.
    Did you want to put something in the record, Mr. Souder? 
Without objection, your request will be granted.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Mr. Davis.
    Mr. Davis of Virginia. Dr. McGeehin, again thanks for being 
here.
    What is the Federal standard for indoor ambient air levels 
of formaldehyde in trailers?
    Mr. McGeehin. In residences?
    Mr. Davis of Virginia. In travel trailers?
    Mr. McGeehin. There is none.
    Mr. Davis of Virginia. There is none. Are there 
formaldehyde standards for the manufacturing housing industry?
    Mr. McGeehin. There is for manufactured housing. There is 
for the component parts.
    Mr. Davis of Virginia. And I think that there are component 
part standards but not an indoor ambient air standard; is that 
correct?
    Mr. McGeehin. That is true, Congressman.
    Mr. Davis of Virginia. The indoor levels of 400 parts per 
billion are target levels based on wood emission standards, as 
I understand it, and these have been in place for 24 years.
    Mr. McGeehin. Are you talking about the HUD language?
    Mr. Davis of Virginia. Yes, sir.
    Mr. McGeehin. Yes, that is language and is not a standard. 
The way you described it seems accurate to me.
    Mr. Davis of Virginia. And from the CDC that is not an 
appropriate standard, is it?
    Mr. McGeehin. It is not a standard, right. It is, from what 
I understand from HUD--and it is lonely at this table--the 
language, when they announced their component part numbers, the 
language said 400 parts per billion. I have had many 
discussions with HUD, and they do not consider 400 parts per 
billion a standard.
    Mr. Davis of Virginia. In your discussions have you worked 
toward promulgating any standards, any levels, any regulations 
that would define these so when the Government contracts out 
contractors know what the rules are, people who are utilizing 
trailers know what the rules are? Has the CDC been proactive in 
that at all?
    Mr. McGeehin. The CDC is trying to get Government agencies 
together to address the formaldehyde issue. My boss, Dr. Howard 
Frumkin, is leading a group to try to do that. I think you 
know, Congressman, and I think you would agree with this, that 
CDC is not a standard-setting agency.
    Mr. Davis of Virginia. Right.
    Mr. McGeehin. I think it is in the best interest of the 
American public and the Congress that CDC never become a 
standard-setting agency because we can go in and look at 
something solely from the public health perspective.
    However, there right now are no standards by which a 
manufacturer or anyone can say this is the ambient indoor air 
standard for formaldehyde in the United States.
    Mr. Davis of Virginia. So as far as you know, then, what 
was delivered here was not not meeting standards because there 
were no standards, unfortunately?
    Mr. McGeehin. They are not only are no standards for travel 
trailers for indoor ambient air for formaldehyde, but there are 
no standards to my knowledge--and I have been immersed in this 
for the last 15 months--there are no standards for travel 
trailers for component parts because the HUD component part 
standards only apply to manufactured homes and not to travel 
trailers. They are exempted from that.
    Mr. Davis of Virginia. Thank you.
    Mr. McGeehin. That is my understanding.
    Chairman Waxman. Thank you, Mr. Davis.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    One of the things, just following up on what was just 
stated, clearly the United States of America should not be 
purchasing trailers that are going to bring harm to the 
American people. Would you agree with that?
    Mr. McGeehin. Of course, sir.
    Mr. Cummings. Regardless of standards. We are talking about 
things like watery eyes; burning sensations in the eye, nose, 
and throat; nausea; coughing; test tightness; wheezing; skin 
rashes and allergic reactions. Formaldehyde exposure may also 
trigger attacks of those with asthma. Extremely high levels of 
exposure to formaldehyde can immediately be dangerous to one's 
health and life. No matter what the standard is, the American 
people were purchasing trailers that could bring harm to other 
American people. That is the face of this.
    In Katrina we had people who were victimized at least 
twice. Their country failed them, except for the Coast Guard, 
and then living in these trailers was failing them also.
    I don't know what John Lewis said. I am not here to attack 
you. But I want to make sure we keep the focus on this. I have 
said too many times over and over again our country is becoming 
mired in a culture of mediocrity and failure to be empathetic 
to human beings. So we can talk about standards here, there, 
and everywhere, but the question still remains: do we get what 
we bargain for, or are we getting something that does harm?
    No, I understand you are not familiar with all the letters 
and the correspondence that went back and forth, but, Dr. 
McGeehin, Gulf Stream sent a letter to FEMA that read in part--
and I just need your opinion on this very quickly--this is what 
the letter said. It is dated May 11, 2006. It said: ``We wanted 
to followup on our recent conversations regarding travel 
trailers supplied to FEMA. As we have previously indicated, we 
wanted to again let you know that we remain committed to 
providing high-quality products. No particular information on 
ventilation or standards for indoor air quality, including 
formaldehyde, are required by Government regulations relating 
to travel trailers; however, even though not required, Gulf 
Stream has taken the added step of specifying low-emission 
standards.''
    Now listen to what they said. ``We would like to reiterate 
our willingness to assist you in addressing any concerns about 
our products. Our informal testing has indicated that 
formaldehyde levels of indoor ambient air of occupied trailers 
far below, for instance, the OSHA standard of .75 parts per 
million--'' now what that means is 750 parts per billion--``we 
are willing to share these informal test results with you and, 
as mentioned during our meeting, if FEMA wishes to conduct 
formal testing protocols on any designated units, we are 
willing to participate in that testing.''
    Now, did you hear that?
    Mr. McGeehin. Yes, sir.
    Mr. Cummings. All right. What impression did you get from 
the letter? Does it sound like Gulf Stream is aware that its 
trailers have high formaldehyde levels? I mean, from what you 
just heard?
    Mr. McGeehin. No, sir.
    Mr. Cummings. And let me tell you that Gulf Stream did not 
disclose it in that May 11, 2006, letter. This is what they 
didn't disclose. Gulf Stream did not disclose that, of 11 
occupied trailers it tested, every one of them showed 
formaldehyde levels at or above 100 parts per billion. It did 
not disclose that four of the eleven occupied trailers had 
formaldehyde levels over 500 parts per billion, which is OSHA's 
regulatory action level. OSHA requires medical monitoring of 
employees exposed to levels over 500 parts per billion. Should 
Gulf Stream have disclosed that information to FEMA?
    Mr. McGeehin. Sir, that is very hard for me to talk about, 
a correspondence that I had nothing to do with and don't know 
anything about.
    Mr. Cummings. If you were in their position, would you have 
disclosed it, as somebody expecting certain things from folk 
who are selling things to the American people with their hard-
paid tax dollars, would you have expected it?
    Mr. McGeehin. I would go back, sir, to what I said to the 
chairman, that I think that sort of information should be 
shared and that is a good thing to share that.
    Mr. Cummings. And Gulf Stream also did not disclose that 
its testing of unoccupied trailers showed even higher levels of 
formaldehyde. A large number of these showed levels well over 
750 parts per billion in unoccupied trailers. Should Gulf 
Stream have disclosed that information, do you think?
    Mr. McGeehin. I think if they had that information on 
formaldehyde that was above 750 parts per billion that would 
have been a good thing to let FEMA know.
    Mr. Cummings. Clearly, Gulf Stream spent over a month 
putting together this letter. They carefully crafted it, and 
this is what they came up with.
    Thank you very much.
    Again, this is about people. This is about human beings.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Cummings.
    Now to the Republican side. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Doctor, you are going to be the only scientist we have 
here. The next panel, as the ranking member said, basically are 
people being sued as a result of the hysteria that may or may 
not be valid around formaldehyde. Let me ask the first 
question. Is there a universal standard, or is there a number 
that you would set here today to say we should make sure 
trailers never have in them under ordinary conditions?
    Mr. McGeehin. Sir, I would think that if we are going to 
talk about----
    Mr. Issa. No, no. Is there a number?
    Mr. McGeehin. I am sure there is. It is not one that----
    Mr. Issa. OK. You are not prepared to give it.
    Mr. McGeehin. That is true.
    Mr. Issa. OK. The second one--and I want to keep it short 
because I only have the 5-minutes--so today the Government, you 
are not prepared to give a number, so 700, 500, 100. But let's 
take HUD's number for a moment. HUD said that basically you can 
outgas at 300 parts per billion out of plywood. Is that number 
too high?
    Mr. McGeehin. For travel trailers?
    Mr. Issa. No. It is a standard for wood.
    Mr. McGeehin. It is a standard for wood? Well, we have 
shown in our----
    Mr. Issa. No, it is the standard for outgassing of wood, 
because once you make the wood, people aren't going to make a 
lot of different plywoods. There is only so much MDF and 
plywood going to be made. Once you have a standard for home, 
travel trailers, they are going to tend to use the same in 
these industries. Is the standard of basically the glue used to 
bond together either MDF or plywood, is that an unreasonable 
standard, or are you prepared to answer is that a good number?
    Mr. McGeehin. Sir, I will tell you what our study showed. I 
am not going to say whether that is an unreasonable number. I 
will show you that 44 of the 45 component parts met the HUD 
standard, and yet for those four travel trailers the levels 
were in the multiple hundreds of parts per billion.
    Mr. Issa. OK. So we have a standards problem today, based 
on that, in my opinion.
    Let me ask another question. You take plywood, carpet, 
plastic, you name it, the components that all produce 
formaldehyde, you put them in a closed, air-tight oven, you 
heat them up to 160 degrees. Are you going to get a 
concentration of formaldehyde inside the air chamber?
    Mr. McGeehin. You are going to get a lot of different 
contaminants, probably. Yes.
    Mr. Issa. OK. But, in fact, that is what a closed-up 
trailer is in the hot sun, no matter who made it, no matter 
what they used. That is what you have. One, the elevated levels 
are to be expected in a closed-up, hot trailer, which means we 
shouldn't be testing them that way. There has to be a 
standardized test. Can the CDC come up with a standardized 
test, or should some agency come up with a standardized test so 
that we can be comparing apples and apples for levels of 
ventilation, etc.? Because it sounds like the Government hasn't 
provided that yet, either.
    Mr. McGeehin. Well, I think if an agency moves toward 
setting a standard they will have to give guidance on how that 
standard would be measured.
    Mr. Issa. OK. The trailer manufacturers are going to be 
here after you, and Gulf Stream is the gold standard by most 
people. I know you have a gold standard of testing equipment, 
but they are the gold standard for trailers, commercial, off-
the-shelf trailers, been around forever, well regarded. Most 
people know that name more than the other three manufacturers. 
Did you find anything in your testing of those other trailers 
that showed that these trailers were materially different than 
what the commercial public buys and happily works with on a 
regular basis?
    Mr. McGeehin. We weren't able to look at whether or not 
these were different from that. I mean, there are the off-the-
lot models that were sold to FEMA and used, and there are the 
spec models that were sold to FEMA and used.
    Mr. Issa. OK. Now, in your opening statement you said 
something that I think was very significant that I hope we can 
all focus on here today. You talk about mold creating 
formaldehyde, the relationship between the two. I will set up 
the question fairly narrowly. Louisiana, Mississippi, there is 
a huge flood, stagnant water sitting there, unfortunately in 
some cases with sewage and all kinds of other things. It is 
wet. It is rainy. It is hot. It is humid. Everything gets wet, 
including the people going in and out to try to salvage things. 
Mold is pervasive. In fact, is that a major contributor in all 
likelihood to the general unhealthy atmosphere that existed in 
that area of the south after Katrina?
    Mr. McGeehin. I think that mold in an indoor environment is 
not a good thing. I think that what we found in our multiple 
regression was that mold was associated with formaldehyde 
levels, not causative of formaldehyde levels. There is a 
difference.
    Mr. Issa. So you are saying that plywood causes mold?
    Mr. McGeehin. No, sir. I am saying that the indoor air 
contamination may be related to both of them at the same time.
    Mr. Issa. I see. Now, in your test you tested for 
formaldehyde. Because you had a large amount of people in a 
terrible situation post-Katrina, did you test for anything 
else? I can't find any other testing for the effects of mold, 
mildew, all the other chemicals, including sewage that backed 
up. What test can you provide us with that shows the other 
things that may have caused the same symptoms more or less that 
are being reported and blamed on only one chemical, 
formaldehyde?
    Mr. McGeehin. Sir, we went to the field as rapidly as we 
could to answer the question that was pervasive at the time, 
which was formaldehyde. The study was aimed at formaldehyde. We 
controlled for smoking and some other factors with a 
questionnaire, but we tested for formaldehyde.
    Now, if you wanted to look at other VOCs that may be in the 
air of these trailers, we looked for 80 different VOCs in the 
Lawrence Berkeley study, found 33 that were measurable, found 3 
that might be considered elevated, and the focus ended up being 
on formaldehyde.
    Chairman Waxman. Thank you, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Chairman Waxman. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    I want to talk specifically about unoccupied trailers. 
Between March and May 2006 Scott Pullin, one of Gulf Stream's 
vice presidents, tested occupied and unoccupied FEMA trailers 
for formaldehyde. All totaled, he tested about 50 trailers. He 
tested Gulf Stream trailers, and he also tested trailers made 
by other manufacturers. Mr. Pullin tested over 35 new travel 
trailers that had not yet been deployed for displaced 
residents. Of those trailers, over 25 were manufactured by Gulf 
Stream and 7 by other companies. The levels of formaldehyde in 
these unoccupied trailers were remarkable. Over 10 Gulf Stream 
trailers contained formaldehyde levels in excess of 900 parts 
per billion.
    Dr. McGeehin, is there any question that exposure to 
formaldehyde at that level is dangerous?
    Mr. McGeehin. Sir, most studies show that when you get up 
above 800 parts per billion or so that most people will have 
symptoms at that level of formaldehyde.
    Mr. Davis of Illinois. And so certainly at 900 it would be 
dangerous?
    Mr. McGeehin. The word dangerous has connotations to it 
that I am not really comfortable with. One of the things that 
we have tried to do in all our reports is to stay away from 
words that cause alarm. I would say that at that level we could 
expect a good proportion of the population to have symptoms 
that were described earlier.
    Mr. Davis of Illinois. Then let me just go on. The 
Environmental Protection Agency has established 900 parts per 
billion as an acute exposure guideline level. This level is 
designed to guide emergency responders in understanding the 
risks from a once in a lifetime exposure such as might occur 
after a chemical spill. According to EPA, a one-time exposure 
to formaldehyde at levels exceeding 900 parts per billion could 
lead to irreversible harm.
    Let me ask you, would it be appropriate to allow families 
to move into an unoccupied trailer that had formaldehyde levels 
of 900 parts per billion?
    Mr. McGeehin. I would say, Congressman, a family should not 
reside in a trailer that has 900 parts per billion 
formaldehyde.
    Mr. Davis of Illinois. One Gulf Stream trailer had 
formaldehyde levels of 2,690 parts per billion. Other makes of 
travel trailers contained similarly high levels of 
formaldehyde, with seventeen trailers having formaldehyde 
levels over 900 parts per billion and one trailer having levels 
of 4,480 parts per billion.
    Is it safe to allow families to move into trailers with 
these levels?
    Mr. McGeehin. Those levels are starkly higher than what we 
measured in our occupied trailers. I don't know how those 
samples were taken, but across the board, if you have levels 
like that, it would be an environment where many people, if not 
all people, would have the types of symptoms that we have 
talked about.
    Mr. Davis of Illinois. Well, Dr. McGeehin, I have been 
informed that Gulf Stream did not inform FEMA that it had 
tested unoccupied trailers, nor did it disclose the remarkably 
high levels of formaldehyde in these trailers. In March 2006 
thousands of trailers were yet to be deployed. Gulf Stream knew 
that there was a major problem, but they remained silent, and 
as a result those unoccupied trailers became occupied trailers. 
Families moved in and families lived in those trailers, and 
undoubtedly many suffered the consequences.
    I believe that somebody should be held accountable. Whether 
it is FEMA or whether it is Gulf Stream or both, somebody 
should be held accountable for not alerting those families that 
they were moving into hazardous situations.
    I thank you very much and I yield back the balance of my 
time.
    Chairman Waxman. Thank you very much, Mr. Davis.
    Mr. Jordan.
    Mr. Jordan. Mr. Chairman, I have questions for the second 
panel, so I would be happy to yield my time to Ranking Member 
Davis.
    Mr. Davis of Virginia. Thank you very much.
    I would start by yielding to my friend, Mr. Issa.
    Mr. Issa. Doctor, the 900 parts per billion that was talked 
about in a closed-up trailer, with what you would consider in a 
normal healthy environment--home, mobile home, travel trailer--
of air exchange, this closed-up amount would drop off to 
something between the two parts per billion that should be 
ambient and whatever was in that trailer; isn't that true?
    Mr. McGeehin. It would drop off when you opened up the 
trailer, to some extent.
    Mr. Issa. So if you open up a trailer and you have positive 
exhaust, either through an air conditioner that ducts in 
outside air or an exhaust fan which trailers always come with, 
what would you expect 900 parts per billion and outside of 2 to 
equalize at when it was properly ventilated?
    Mr. McGeehin. I have no idea.
    Mr. Issa. OK. But in a nutshell, if you are exchanging the 
air once every several minutes, or a couple times an hour, 
wouldn't you expect it to drop off to essentially whatever the 
constant emission is at the highest, that it would be whatever 
is being outgassed, because your ambient of two is coming in. 
You would end up down in the less than 100, wouldn't you?
    Mr. McGeehin. Eventually you are going to achieve an 
equilibrium with the gasses that are coming off the component 
parts.
    Mr. Issa. Thank you.
    Mr. Davis of Virginia. Thank you.
    Everyone here is appalled at what happened to some of these 
poor victims of Katrina, that they ended up in trailers with 
high formaldehyde, people became sick. I don't think anybody up 
here is anything but appalled by this. What concerns me today 
is we only have a small piece of the puzzle. We very much 
appreciate you being here lending your expertise on this. It is 
a very important part of it.
    But it seemed to me we had a crisis, you had to get a lot 
of product online very, very quickly, and the Government went 
out to the private sector, and there were really no set 
standards. The private sector is able to testify, I think, they 
had to go to new sources to try to bring the product online 
very quick, some of it from China and the east. There was no 
checking. There were no clear standards of what is going on at 
points when the issue was raised by some of the companies. FEMA 
tended to look the other way.
    What is so sad today is we are focusing just on the 
manufacturers and not on the Government, which I think has a 
lot of culpability here. Not the CDC, I might add, but other 
agencies who, through time, have not promulgated standards, who 
haven't done the appropriate inspections, who I think were so 
concerned about getting product that they didn't look through 
appropriate regulation and inspection that should have 
occurred.
    What concerns me is: are we changing this in the future 
when the next Katrina hits and we need to bring a lot of 
product online? I dare say a lot of these companies that have 
provided this in the past are probably unlikely to respond.
    What is being done to put standards up so everybody knows 
what they need? Do you have any idea, Doctor? You said that CDC 
is having discussions at this point.
    Mr. McGeehin. Right. I don't know if that will lead to 
standards or not, but I would like to take this opportunity, if 
I might, just to talk. The members of this panel look at things 
in one way, and maybe the public health agency looks at it in a 
slightly different way. I look at it from this standpoint, 
being immersed in this since last May: I look at it that I 
think we need to find out what the exposures were and what the 
effects of these exposures were on the people residing in these 
trailers. That is what----
    Mr. Davis of Virginia. Just stop there. You never found any 
900 parts per billion in any of your inspections, correct?
    Mr. McGeehin. The highest level that we found, sir, was 590 
parts per billion in the occupied trailer study.
    Mr. Davis of Virginia. OK.
    Mr. McGeehin. So that is the one thing. And the other thing 
that has kind of driven me over the last few months is to try 
to figure out a solution for this for the future. We went out 
and we met. I am probably going to go over and I am going to 
probably mess up everybody's time, but we went out and we met 
with the RVIA and the other industry in Indiana and had a very 
good 8-hour session to talk about what we are doing and what 
they are doing. I think that somehow we have to solve this 
problem, and I think it is going to have to be a Government-
industry sort of solution to this problem so that we have some 
sort of temporary housing units for the next time--and I hope 
this doesn t happen for a very long time--the next time we have 
a Katrina-size issue hit.
    The idea that we don't solve this and that we are faced 
with this in whatever period of time I think is abhorrent to 
all of us.
    So pretty much what I have been focused on is trying to 
assess what happened to the people, and we are going to try to 
do that with the children's health study; and, second, how can 
we make sure that this doesn't happen any more.
    My solution to that--and I am not an enforcement agency and 
I am here by myself as a public health agency--my solution to 
that, I think it has to be Government and industry working 
together to figure this out.
    Mr. Davis of Virginia. I agree.
    Let me just say, Mr. Chairman, what concerns me is, because 
of the slant of this hearing, without having the Government 
here--and we have seen this time and time again--I have had 
companies, experts, global companies where the Government will 
go to them and say, we need your help in Iraq. And they say, 
why are we to do business with the Government with the exposure 
of coming before a committee, the lawsuits, and everything 
else? It is a high risk for some of these companies. We forget 
that. If we had appropriate standards and oversight this 
wouldn't happen. I hope it doesn't happen again. I think it has 
been very constructive. Thank you.
    Mr. McGeehin. It is not comfortable for any of us, sir.
    Mr. Davis of Virginia. Yes. Thank you.
    Chairman Waxman. Mr. Murphy.
    Mr. Murphy. Thank you very much, Mr. Chairman.
    I take some comfort today in what seems to be a growing 
bipartisan consensus around this idea that we need to have 
standards, we need to have some level of enforceability, and 
that both industry and Government have to be part of that 
solution. Because this seems to be, as Mr. Davis said, a very 
clear example in which the absence of that regulatory structure 
has led to some very damaging situations for families and a 
very uncomfortable situation for Government and its affiliated 
agencies.
    And in a town in which there is a lot of derision thrown 
onto Government regulation, this seems to be a perfect example 
of an area in which there is a very appropriate role for the 
Government to step in, to make sure that we have the safety of 
residents, especially in a crisis area such as the Gulf, at the 
forefront of our discussions. For all of the aspersions that 
get cast on the regulatory structures the Government may 
impose, we have examples like this which suggest that there are 
still places in which we need to step up to the plate.
    Mr. McGeehin, I just wanted to get back to the science for 
a moment. We have heard a lot of efforts on behalf of members 
of this committee and of some of the companies that produce 
these trailers to explain away the levels of formaldehyde. 
Understanding, as you have said, that there are lots of 
different explanations for why a real world trailer or home 
might have elevated levels of formaldehyde, what we do have is 
your study. I want to just get at some of these alternative 
explanations, to the extent that they were factored in to the 
work that you have done.
    The chairman of Gulf Stream asserts in his written 
testimony that we have before us today that cooking fish, for 
instance, is a substantial source of formaldehyde in indoor 
air. I want to go through a couple of these potentially 
alternative explanations.
    In the research that you have done on the trailers, have 
you come across any indication that the formaldehyde levels in 
these trailers were caused by abnormally high levels of cooked 
fish or other cooked products that would have been found in 
these trailers?
    Mr. McGeehin. No. For a number of reasons, we did ask the 
residents who participated in the study whether or not they had 
cooked in their trailer for a period of time prior to that, not 
only because the product that they are cooking could give off 
formaldehyde, but also the type of gas they use for cooking 
may, so we controlled for that and did not find that to be a 
factor in our analysis.
    Mr. Murphy. The president of Keystone RV states in his 
testimony that formaldehyde is ``found in household cleaners, 
antiseptics, cosmetics, and medicines.'' Again, any indication 
in the trailers that you have tested that the high levels of 
formaldehyde are caused by cosmetics or household cleaners?
    Mr. McGeehin. No. We did ask about use of a number of 
different household cleaners and did not find that to be a 
factor.
    Mr. Murphy. Finally, there is a suggestion here that--
again, I wanted to let you restate this--that mold and 
potentially backed-up sewage can also lead to some levels of 
toxicity or high levels of formaldehyde. Any indication that in 
the trailers you tested that mold or sewage led to the high 
levels of formaldehyde?
    Mr. McGeehin. We measured mold in two different ways, 
through the walk-through with trained personnel, and also we 
asked the residents about mold, and mold was a factor in the 
multi-varied analysis that we did. I don't believe mold was the 
source of the formaldehyde. I think the quality of the air that 
leads to high formaldehyde levels also leads to mold.
    Mr. Murphy. Thank you very much, Doctor. I understand the 
nuance conversation here about the different factors that can 
contribute to high levels of formaldehyde, but we are dealing 
with science. We are dealing with studies that have been done 
by a trusted agency that have controlled for these very 
factors, and it is a legitimate conversation to have except for 
the fact that we have a study in front of us that shows us that 
we have unacceptable levels of formaldehyde, even controlling 
for many of these factors that have been brought before us.
    I yield back the balance of my time.
    Chairman Waxman. Thank you very much.
    If the gentleman would permit me.
    Mr. Murphy. I would yield to the chairman.
    Chairman Waxman. I do want to point out, because we have 
had several complaints that we haven't had Government witnesses 
here, we invited other Government witnesses. We invited FEMA. 
We have invited all the Government agencies that have been 
requested by Mr. Davis and other members of the committee. They 
did not agree to come here. But we did have a hearing on this 
subject with FEMA.
    Mr. Davis of Virginia. Mr. Chairman.
    Chairman Waxman. Yes.
    Mr. Davis of Virginia. My understanding from FEMA and HUD 
is they didn't get the invitation until Thursday before the 
weekend to come here for this hearing, and that is why they 
declined. I still wish they could have been here. I think it 
would have added a lot, but I think it would have helped to 
have been able to get them all here at the same time.
    Chairman Waxman. I don't disagree with you, except I do 
want to point out I think you are misinformed. They were 
invited at the same time that CDC was asked to come here, and 
we have CDC represented here, and FEMA refused to come. But we 
did hear from FEMA last time around, and what we heard from 
FEMA is they didn't want to know about the problem. They just 
didn't want anybody to do any evaluations because they were 
afraid they would find high levels.
    If I can yield myself another 30 seconds of my own time 
that I reserved before, we heard the statement we ought to have 
Government and industry working together to protect the 
consumers. I think we have a good example here of Government 
and industry working together to hurt the consumers. Government 
didn't want to know the information. FEMA didn't want to know 
what levels of formaldehyde were in these trailers. And then we 
have Gulf Stream trailer manufacturers who don't feel any moral 
or other responsibility to let FEMA and the families know that 
they have done tests on these trailers and they find high 
levels of formaldehyde, which they obviously knew were thought 
of as excessive and harmful to people's health.
    So what we have is Government failure and industry failure. 
If we passed laws with standards, I think that is great, but 
what we have to make sure is that the representations that are 
made to the Government are about what is actually happening, 
and the Government asks the questions, and they work together 
to make sure the public is protected.
    I think what we have seen here is no regulation and no 
self-regulation by the industry, as well.
    I now want to yield to Mr. Burton 5 minutes.
    Mr. Davis of Virginia. Would the gentleman yield me just 20 
seconds?
    Mr. Burton. Yes.
    Mr. Davis of Virginia. Let me just note again for the 
record I ask unanimous consent, this is a chart from our 
minority report, 98.8 percent of the temporary housing units 
tested by the CDC in Louisiana and Mississippi met the HUD 
ambient air targets for formaldehyde. One of the problems here 
is that target level is probably too high and it ought to be 
changed. But the customer in practically 99 percent of the 
cases met it, and there were inspections in some of the other 
instances.
    So as we take a look at this, I think that we need to focus 
on what the Government did as the buyer. There was no direct 
selling between the trailer manufacturers and the end users; 
they sold to the Government, and the Government had bad 
standards in some cases. And in other cases, when the 
manufacturers went to the Government and said there was a 
problem, the Government said, let's not talk about it.
    Thank you.
    Chairman Waxman. If the gentleman might permit, that HUD 
standard is not an adequate standard. It is not even----
    Mr. Davis of Virginia. I just made that point, Mr. 
Chairman. It is not an adequate standard, but why beat up on 
the customer.
    Mr. Burton. Reclaiming my time, Mr. Chairman.
    Chairman Waxman. Mr. Burton, your time.
    Mr. Burton. Thank you.
    I am not going to take very much time. I would like to have 
my whole statement presented for the record.
    [The prepared statement of Hon. Dan Burton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. I have been familiar with the travel trailer 
and trailer industry since I was a kid, and I haven't seen any 
evidence that they have violated any rules and haven't done 
their job to perfection. There are over 8 million people in 
this country that live in mobile homes and RVs and travel 
around the country with no problems with the formaldehyde issue 
we are talking about today, and so instead of beating on the 
manufacturers I think we ought to give them a little vote of 
confidence because they have such a good track record in the 
past.
    With that I yield to my colleague, Mr. Souder from Indiana.
    Mr. Souder. I thank my friend from Indiana.
    While there may be differences of opinion, I really am 
deeply concerned about the use of the word moral to apply to 
people who worked overtime to provide units to people who were 
in housing crisis. They may have worked their people hard. They 
did it under great pressure. We had tremendous hiring 
challenges in Indiana, training challenges, but they worked 
overtime to try to meet the standards at half the cost of a 
normal unit. I believe the chairman was more referring to a 
question, and I think that as we try to make sure that people 
live in safe homes and that people work in safe plants, this 
debate is not about emotional rhetoric, it is, in fact, about 
science.
    One of the core fundamentals that is being tossed around 
here is whether Gulf Stream's test constitutes science. It was 
a flash test with a desiccator method, which is not the way 
that you test.
    Now, should FEMA have responded to then do scientific 
tests? We can't pretend and keep asking Dr. McGeehin how he 
would have reacted to something that was a flash warning test 
like you do with the formaldehyde test or that type of thing. 
We are making big judgments here on the morals of people based 
on the fact that one company did have concerns with a shipment 
of wood, then did a flash test on that, did say a range but 
didn't give all of it because the variation is far too great to 
be scientific with the method that they used.
    Now, I also want to make sure that when Mr. Murphy asked 
some questions, that it isn't really scientific to say, when he 
asked did you test, to say the individuals were asked, because, 
in fact, you didn't test to see whether other things caused the 
standards, you asked them whether they did anything.
    Mr. McGeehin. I think I stated that we did it with a 
questionnaire and that we controlled for it in the analysis. I 
think I exactly said those words.
    Mr. Souder. It shouldn't be taken here that there was a 
test done on other things. That was a self-dependent referral 
rather than an actual scientific test to see what else was 
there.
    We come back to this Tulane study that said the ambient air 
study in Baton Rouge was 390 parts per billion. That was the 
average, which means they had four times what you were finding 
in these trailers average. Would you recommend that 390 
average, which means probably some of them were in the 500-600 
range, that everybody who lives in that region should move out?
    Mr. McGeehin. I would recommend exactly what the authors of 
that recommended.
    Mr. Souder. Which is?
    Mr. McGeehin. People should look to ventilate their houses 
more, that they should look at what component parts they are 
putting in and what additional work they are having done on 
their house.
    Mr. Souder. And that is then your recommendation for the 
trailers, as well, not panic?
    Mr. McGeehin. I am sorry, sir. I didn't hear that.
    Mr. Souder. In other words, if they are averaging 390 in 
Louisiana in a general site-built house, which is higher than 
the average here, would you make the same recommendations for 
emergency FEMA trailers that you just made to Baton Rouge? Why 
are we having a double standard on this group and not basically 
the same level of concern about possibly the entire southern 
region there.
    Mr. McGeehin. Congressman, we did make that recommendation. 
We recommended that FEMA move the people out of these units 
before the weather became hot and the levels went back up. In 
the meantime, we did recommend that people ventilate their 
trailers more, be careful, do not smoke inside their trailers--
--
    Mr. Souder. Taking back my time, did you recommend the same 
thing to the people in Baton Rouge?
    Mr. McGeehin. Sir, we didn't do that----
    Ms. Souder. It's 390.
    Mr. McGeehin [continuing]. Study, sir.
    Mr. Souder. OK. You already testified you felt it was an 
accurate study. The question is why would you make a 
recommendation to one group and not the other?
    Mr. McGeehin. Sir, that was a study that was done 9 years 
ago that was given to me 2 days ago. I can't go back and 
recommend to the citizens who are in those homes that they move 
out. I mean, that is not what we do. This is a study that I was 
asked what did I think about this study, and I gave you that 
assessment.
    Chairman Waxman. The gentleman's time is expired.
    Now Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    You may have covered this. I apologize if you have. But 
when you do a test to determine if the standard is being 
satisfied whether a trailer is safe or not safe, do you do it 
with the windows closed? Do you do it with the windows open? Do 
you do it with the fan running?
    Mr. McGeehin. For our occupied study what we wanted was for 
people to set their trailers up the way they normally have 
their trailers when they are sleeping, so we asked them to set 
it up, and if they keep their windows open 3 inches, if they 
keep their windows wide open, if they keep the air conditioning 
running, however they set their trailers up for that period of 
time, that is how we asked them to set their trailers up and 
that is how we sampled. We wanted it to be the most realistic 
exposure that we could.
    Mr. Sarbanes. But that would mean you would sort of end up 
on a trailer-by-trailer basis coming up with what----
    Mr. McGeehin. We were interested in what the human beings 
were being exposed to for formaldehyde.
    Mr. Sarbanes. OK. The second question I have is in terms of 
sustained exposure, so day after day after day. In somebody who 
is exposed to, let's say, 250 parts per billion for 50 days in 
a row at a higher risk of some kind of harm than somebody who 
is exposed to 250 parts per billion for 10 days in a row and 
then are not exposed to that subsequent?
    Mr. McGeehin. Essentially what you are doing when you look 
at human exposure to any contaminant is, in one way or another, 
you are basing it on an index, and the index is based on the 
intensity of the exposure--in this case, the level of 
formaldehyde that you are mentioning--and the duration of 
exposure, how long they are exposed. When you are dealing with 
contaminants, I think the rule of thumb is to try to decrease 
either of those components as much as you can. Either decrease 
the intensity by decreasing the amount of exposure that they 
have to formaldehyde, and/or decrease the duration of exposure.
    You don't want people being exposed to a contaminant that 
causes symptoms, and the more you can decrease either one of 
those you decrease the exposure index.
    Mr. Sarbanes. So there is a cumulative dimension of 
potential harm that can come?
    Mr. McGeehin. Particularly when you get into the 
carcinogenic potential of formaldehyde. Formaldehyde by the 
International Agency for Research on Cancer [IARC], is 
considered a human carcinogen, and when you have human 
carcinogens you really want to try to decrease the person's 
exposure as much as possible.
    Mr. Sarbanes. All right. So it becomes relevant the use for 
which a trailer is being put?
    Mr. McGeehin. Well, we absolutely believe that.
    Mr. Sarbanes. Yes.
    Mr. McGeehin. One of the recommendations when we were 
talking to FEMA is that, while you don't want to get into a 
specific number when people are living in a unit, one of the 
issues is how is that unit being used. If you have a family 
with young children and they are in the unit 24 hours a day, as 
some of the families in the parks were, that is different than 
a person who has a unit parked outside their home who spends 8 
hours at work and then comes home and spends 4\1/2\ hours 
repairing the roof to try to move back into their home. So the 
use of the trailer is an important part of the level of 
exposure.
    Mr. Sarbanes. You know, people keep referring to the 
emergency circumstances as an excuse/explanation for folks 
being put in harm's way where there were these high 
formaldehyde levels. But, leaving that aside for a minute, 
would you agree that if the alarm had been sounded earlier and 
more consistently by both the manufacturers and FEMA, that we 
would have gotten started much earlier on doing the kind of 
thinking you say you have been doing about how we can fix this 
problem going forward and think about the kinds of housing that 
should be available to people in these disaster recovery 
situations?
    Mr. McGeehin. I think it is fairly easy to imagine the time 
line that we currently have being moved up.
    Mr. Sarbanes. Yes.
    Mr. McGeehin. And then moving everything up whatever number 
of months that may have been.
    Mr. Sarbanes. I mean, I am running out of time, but FEMA 
has only just recently come up with a national disaster housing 
plan. Actually, it is just a preliminary blueprint, I guess, 
and Congress called for it 2 years ago. That would have 
included and should have recommendations on creating different 
kinds of inventory of housing inventories in these disaster 
situations. We could have gotten started much earlier on that 
if people had come clean earlier with the information on these 
kinds of exposures.
    I yield back my time.
    Chairman Waxman. Thank you, Mr. Sarbanes.
    Mr. Shays.
    Mr. Shays. Thank you.
    I will first yield to my ranking member, and then I will 
take the rest of the time.
    Mr. Davis of Virginia. Mr. Chairman, we had talked about 
notification. I have letters from you to Steve Preston, the 
Secretary of HUD; Steve Johnson, the Administrator of EPA; John 
Howard from OSHA; Ed Faulk from OSHA; and Nancy Nord from the 
U.S. Consumer Product Safety Commission July 3rd--that is last 
Thursday--inviting them to come to testify before the 
committee.
    I understand there was a letter slightly earlier than that 
to FEMA, but they told us they didn't get it until Thursday. 
The manufacturers have been on the hook here for a month, have 
known that they were coming here.
    So this isn't trying to get everybody together at one table 
to discuss this. This was almost an afterthought, and as a 
result of that we have an incomplete hearing.
    This was a tragedy what happened here to some of the 
families that had these high levels. It shouldn't happen. It 
shouldn't have happened. It should never happen again. And we 
ought to focus on what we can do. But the Government bears the 
prime responsibility here for not appropriate inspections, not 
reacting to what some of the manufacturers had told them early 
on that there were problems, not going through proper 
inspections, even with a moving and very uncertain standard.
    So that is the difficulty here. When you have lawsuits 
outstanding against some of these companies, we know how this 
works. We are all adults. You are going to have lawyers put in 
testimony from some of the Members of Congress and some of the 
staff reports into the record before juries to try to get high 
awards, and so they are trying this. We have seen this happen 
before, unfortunately. We understand the politics of that, but 
that is so unfortunate here about not having the Government 
here and working toward a solution instead of trying to frame a 
lawsuit. That is my major concern with this.
    What happened was a tragedy. It shouldn't happen again.
    Thank you, Mr. Shays.
    Mr. Shays. Happy to yield.
    First, Doctor, thank you for coming. Thank you for your 
good work. This is a very important issue, and we appreciate 
your expertise and talents.
    I would like to ask about what happens in the future. FEMA 
has specified a new procurement specification of 16 parts per 
billion regarding formaldehyde in FEMA trailers. First, do you 
think this new procurement number of 16 parts per billion is 
reasonable?
    Mr. McGeehin. We weren't asked, Congressman, to comment on 
that before FEMA came out with that. I know on which that is 
based, which is based on a NIOSH standard that was based on 
formaldehyde being considered a carcinogen, and at that point 
16 parts per billion I believe was the lowest level that could 
be detected by the analysis of air sampling at that time. I 
think 16 parts per billion across the board for temporary 
housing is going to be a difficult mark to make.
    Mr. Shays. Thank you.
    Let me ask you, in your interim report figure two depicts 
100 parts per billion of formaldehyde as an intermediate range 
and 1,000 parts per billion as a higher range. Does CDC still 
stand by the figure? In light of the mean result from the CDC 
trailer study being 77 parts per billion, wouldn't it be 
inappropriate and misleading to classify trailer formaldehyde 
levels as high?
    Mr. McGeehin. What we tried to do with that was have a 
sliding scale so that people understood that it wasn't just a 
one-time measurement of formaldehyde that determined whether or 
not an environment was safe and healthy or not, that there were 
other factors involved. What CDC has done from the beginning of 
this is to look at the literature and to go by what the 
literature says, that levels of formaldehyde in an indoor 
environment may cause symptoms, and at those levels that is how 
we basically have approached this problem.
    Mr. Shays. Right. But in your interim report it is 
basically 100 to 1,000, but 100 being kind of the low range, 
which is still higher than the 77 parts per billion. So do you 
need to adjust that number down of 100?
    Mr. McGeehin. No. I think that was done by the graphics 
people because it made some sense to have 100 and 1,000. If you 
are looking at the colored version of that you will see a 
gradation in that between 100 and 1,000 where various symptoms 
occur. I don't think we need to adjust that particular graphic, 
because we have been consistent in what we have said from the 
very beginning that at 100 parts per billion sensitive 
individuals show symptoms. There are a number of studies that 
show 300 parts per billion, and at 100 parts per billion there 
are a number of agencies--WHO, EPA, ASHRAY--that talk about 
that as the level that action should be taken. So I am very 
comfortable at the 100. If you are concerned about the 1,000--
--
    Mr. Shays. No, I am not concerned; I am just making the 
point. I think you have answered it. The 100 to 1,000 is an 
illustration, but 1,000 is pretty low, and there are some 
symptoms that show at that point.
    Mr. McGeehin. You mean 100.
    Mr. Shays. It does suggest that it is certainly higher than 
16 or 77.
    Mr. McGeehin. Right. The 77 was the geometric mean that we 
found across the board. I think what you need to do when you 
look at that study is that you also have to look that for some 
manufacturers 56 percent of theirs were above 100.
    Mr. Shays. OK.
    Chairman Waxman. The gentleman's time has expired.
    Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman, and I want to thank 
Dr. McGeehin.
    I would like to ask you about a CDC study where you worked 
with the Lawrence Berkeley National Laboratory. As I understand 
it, you actually deconstructed four travel trailers that were 
purchased by FEMA, and these trailers were taken apart so you 
could test the emission level of volatile organic chemicals 
from the component parts of the trailers. These tests showed 
that formaldehyde was being emitted inside the travel trailers 
from the component parts; is that right?
    Mr. McGeehin. Yes, ma'am.
    Ms. Watson. Yes. They also show that formaldehyde was the 
only volatile chemical in the travel trailers that was at a 
level high enough to negatively impact human health; is that 
correct?
    Mr. McGeehin. Yes, ma'am.
    Ms. Watson. Yes. Were you aware that the Gulf Stream also 
conducted the test of its component parts 2 years ago?
    Mr. McGeehin. No, I was not.
    Ms. Watson. OK. Based on documents that were obtained by 
this committee, it appears that they did, and the company 
actually hired another company called Progressive Engineering 
to test individual samples of the paneling, and Gulf Stream, 
itself, appeared to have tested the fiber board, vinyl, and the 
drawers to determine their formaldehyde levels. That sounds 
similar to the tests that you conducted; is that so?
    Mr. McGeehin. Yes, it does, depending on what type of 
chamber testing they did, but yes, it does.
    Ms. Watson. Yes. Let me tell you what this company found as 
a result of its testing. Progressive Engineering found elevated 
levels of formaldehyde emitting from the paneling, and if we 
were reading Gulf Stream's notes correctly, they found high 
levels from the other components, as well.
    If you had been informed of this information 2 years ago, 
would it have raised concerns for you?
    Mr. McGeehin. Well, again, I will go back to what I have 
reiterated. Yes, ma'am, any information that shows levels of 
formaldehyde at levels that can cause symptoms would have been 
of concern to us.
    Ms. Watson. I know some of this is redundant, but I am 
trying to move forward.
    Mr. McGeehin. No, that is fine. That is fine. I understand.
    Ms. Watson. Would it have been beneficial for FEMA or CDC 
to have this information when it began investigating these 
issues? I have heard you say earlier that if we had that 
information we could have moved on it, correct?
    Mr. McGeehin. I think any information early on would have 
been of great benefit.
    Ms. Watson. OK. So the problem is that the company did not 
tell FEMA about these component tests, and Gulf Stream had a 
contract with FEMA that was worth $550 million to manufacture 
these travel trailers. When it learned in 2006 that there was a 
formaldehyde problem with the trailers it manufactured, the 
company chose to remain silent. And so FEMA has been rightly 
criticized for its response to Hurricane Katrina and its 
response to the formaldehyde problem, but it should not bear 
all the blame, so we need to be talking to each other openly, 
honestly, in a transparent way. That is the reason why we have 
these Oversight Committee hearings, so a tragedy like this and 
our response will not have been as flawed as it was.
    Mr. Chairman, I will yield back my time, but I wanted to 
make that point.
    Thank you, Doctor.
    Mr. McGeehin. Can I ask a question?
    Chairman Waxman. Go ahead.
    Mr. McGeehin. If those data are available, we would love to 
see them, because one of the things that we want to do in 
followup to the work that we just did with Lawrence Berkeley is 
to try to get some of the original component parts and see what 
they off-gas and see if we can model to see what happened over 
the 2-year period.
    Ms. Watson. Mr. Chairman, through the Chair if we can ask 
staff to provide the Doctor with that information.
    Chairman Waxman. We will certainly try to make that 
available to you.
    Ms. Watson. Great.
    Chairman Waxman. I think it is a reasonable request, and I 
would assume the manufacturers would agree with that.
    Mr. McGeehin. OK. Thank you.
    Ms. Watson. Thank you. I yield back.
    Chairman Waxman. Mr. Souder, you have not taken your 5 
minutes. Do you want to proceed now?
    Mr. Souder. OK. I thank the Chair.
    I think it is really important, because I know that you get 
questions directed at you, and some of these you weren't 
familiar with, that the Gulf Stream test was a desiccator test, 
not a chamber test. There was no chamber test done, which your 
agency says has to be done multiple times. They hired a firm to 
try to do this test, because they suspected that the wood may 
have a problem. They tried to alert FEMA. They told them a 
general range because it is not scientific.
    Mr. McGeehin. Yes.
    Mr. Souder. You used the word chamber. Do you agree that 
chamber testing is the way to do scientific testing?
    Mr. McGeehin. That would be the gold standard for this.
    Mr. Souder. And would you agree that the other is probably 
not even a bronze, particularly if you just do it once and you 
flash test, because number of people, what may be happening 
that day? You said yourself 100 to 1,000 because there may be 
temporary things occurring.
    Mr. McGeehin. Well, sir, I don't know whether or not it has 
been compared to the standard, but if there were data that 
showed whatever testing they did was compared to the standard, 
then we could make that assessment.
    Mr. Souder. Right. In other words, we don't have that 
assessment?
    Mr. McGeehin. I certainly don't.
    Mr. Souder. Well, they didn't either, because they didn't 
do chamber testing.
    Mr. McGeehin. Right.
    Mr. Souder. All they were really alerting FEMA to is hey, 
there may be some problem. Now, Lawrence Berkeley Labs said 
this: as containing high levels of formaldehyde probably 
resulted from cheap wood used by the manufacturers under 
permissive Government standards. Do you think, from you own 
testing, that the variations--because most of them fell here--
were resulting from probably a certain type of wood, or are you 
willing to agree with how Lawrence Berkeley is probably the 
best we can come up with there?
    Mr. McGeehin. I think the Lawrence Berkeley report is the 
best data that we have on the component parts used.
    Mr. Souder. So, while there may be other variables, to the 
degree we had a problem there, it appears to have been 
aggravated, at least, by the wood.
    Mr. McGeehin. Yes.
    Mr. Souder. You used a very understated term. You said it 
would probably be pretty hard to achieve a 16 level?
    Mr. McGeehin. Right.
    Mr. Souder. That is probably true, since the average rooms 
that have been tested here, not in chamber tests, are between 
30 and 70, which means that we had better not put anybody in 
our House office buildings in an emergency, so probably saying 
16 is a pretty under-stated statement. I appreciate you 
pointing that out.
    I want to come back, because the Hancock study and the 
Tulane study were not by you. Well, the Mississippi one was. 
You explained the difficulties with that, because we have been 
going back and forth here today between chamber tests, non-
chamber tests, different agencies, using something from a flash 
test that is nowhere near a gold standard that was used in 
quoting some high figure, and we go back and forth between 
ambient air and testing of the wood. We go back and forth 
between ones that people are living in and ones that have been 
packaged up with no ventilation, some new, some old. We don't 
have the VIN numbers. The agencies don't appear to have those 
numbers to be able to match up. It appears that the numbers 
didn't even match up right in some of the cases with the 
manufacturers, that there are significant problems.
    Now, I want to come back because in Hancock, where it 
tested ambient air, with the limitations, there wasn't a 
difference between the trailers and the housing. And in the 
Tulane study, which is NIOSH and what you said was gold 
standard, the average was 390, where the average on these 
trailers was 77 or 87.
    Now, to come back to this, it is not your agency and you 
didn't do that study. You only reviewed it 2 days ago. But if 
we are panicked about what we keep hearing of 400, 200 could be 
exposure, 100 could be, wouldn't that be suggesting that CDC 
and others ought to be checking everything in the State of 
Louisiana and elsewhere since they are four times the average 
standard of these trailers? The average is four times higher. 
Why isn't there panic about the whole region if we are 
panicking about 100 and 200?
    Mr. McGeehin. Well, sir, there must be something unique 
about the houses that were tested in that study. Ambient air is 
not a driver for formaldehyde in indoor air.
    Mr. Souder. Let me ask the question. Do you have any 
scientific evidence that there was anything unusual about their 
test?
    Mr. McGeehin. No. I think the testing process that they 
used, according to the article that I read, was fine.
    Mr. Souder. Then your answer was not scientific in saying 
it must be something else, because, in fact, they were site-
built homes; that, in fact, we could have a problem with all 
site-build homes. You don't know the answer to the question.
    Mr. McGeehin. Except that I am familiar with formaldehyde, 
sir, and outdoor air is not a driver for indoor formaldehyde.
    Mr. Souder. Well, their test didn't suggest it was.
    Mr. McGeehin. But if you read their conclusion, sir, they 
are not suggesting that it is ambient air, either. They are 
suggesting that it is some product inside, either a ventilation 
issue or the products that are used inside the home.
    Mr. Souder. Which is the same question that we have here--
--
    Mr. McGeehin. Absolutely.
    Mr. Souder [continuing]. With these trailers.
    Mr. McGeehin. Absolutely.
    Mr. Souder. My point isn't that the ambient air--I am sorry 
if I confused the ambient air, because that was questioned a 
little more potentially over in Hancock--that the question is 
that if they got these results that are four times higher, 
which could be the wood, which could be the ventilation, why 
aren't we concerned and looking at those houses like we are 
concerned about these houses, because it might not just be the 
poor people here; it may be the poor people all over that zone, 
and it may be the poor people in other types of homes, because 
we are, in my opinion, picking on one industry without really 
having a balance.
    Chairman Waxman. The gentleman's time is expired.
    Mr. Souder. Thanks, Mr. Chairman.
    Chairman Waxman. Was that a question? Did you have a 
response to that?
    Mr. McGeehin. I want everybody on the panel to know that 
CDC and I are not picking on an industry at all. I mean, we 
have had good conversations with the RVIA and other industry. 
They have attended our Scientific Oversight Panel meetings 
twice. I think that our people have gone out to their factories 
to see how they operate.
    From our standpoint, there is no industry bashing going on 
with CDC in any way, shape, or form. I simply state, as I 
stated before, that we are trying to get the answers for this, 
we are trying to provide good data.
    I, quite frankly, think that the LBNL study that we just 
completed and just published should be something that industry 
jumps on and looks at very carefully, because I think it gives 
a lot of guidance as to what the problems might be and how they 
might be solved.
    I just want to make that statement.
    Chairman Waxman. I think that is an excellent point.
    The gentleman's time has expired.
    Mr. Tierney.
    Mr. Tierney. No questions.
    Chairman Waxman. Would the gentleman yield me some of his 
time?
    Mr. Tierney. I certainly yield to the chairman.
    Chairman Waxman. I want to point out the situation, because 
we have heard complaints about some other witnesses from other 
agencies not being here. The manufacturers were invited, 
because this is a hearing about the manufacturers, on June 4, 
2008. On July 1st, our staffs, bipartisan staffs, heard from 
CDC because CDC was doing a study about formaldehyde levels as 
a result of our first hearing with FEMA over a year ago. As a 
result of our hearing where we questioned why FEMA didn't do 
anything about this problem, FEMA said, oh, we are going to ask 
CDC to do an evaluation. So CDC was ready to report its 
evaluation and to release it on July 2nd.
    So when our staffs talked to--I don't know if it was you, 
Dr. McGeehin.
    Mr. McGeehin. It was.
    Chairman Waxman. I guess it was--and heard what the report 
was, Republican staff said, Well, let's invite FEMA back, as 
well as CDC. So we sent an official invitation to FEMA and to 
CDC on July 1st. This was an official invitation to come.
    Some time later in the week, the minority then said, well, 
wait a second. We ought to have HUD, as well, to come in and 
talk about these standards, in order to get all the relevant 
witnesses regarding standards. Well, our staff replied, this 
isn't a hearing about standards; this is a hearing about 
whether the manufacturers had information that they should have 
shared with the Government, FEMA, and whether they should have 
shared it with the people living in the trailers.
    But, nevertheless, we sent an invitation to HUD, NIOSH, 
EPA, CPSC, and OSHA on July 3rd. Now, that is awfully late, and 
they said they weren't available to come. FEMA said they 
couldn't come at all because they were busy with the 
emergencies that are going on.
    I want to make that point very clearly and yield to Mr. 
Davis if he wants to add anything further.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    First of all, let me just note the CDC report was final, I 
think, July 2nd, but we had information July 1st, but that was 
the final report. The interim report was in February, as I 
understand, and there wasn't a substantial change, was there, 
between the two?
    Mr. McGeehin. No.
    Mr. Davis of Virginia. So this has been common knowledge. 
We have had plenty of time to plan for this.
    Second, I mean, the difficulty here is when a contractor 
responds to standards from the Government and doesn't meet 
those standards they ought to be held accountable, because we 
have standards, we know. in this case we didn't have standards. 
You had conflicting standards throughout Government over what, 
where, and ambient air standards between HUD and EPA and 
everybody else.
    Chairman Waxman. But if I could reclaim my time, that is an 
odd issue to raise. It is confusing, because we have so many 
different standards, but when we have different standards we 
can look and see. Well, does that make sense to have the 
standards we have? But what we are concerned about is the 
health and well-being of people living in these trailers, and 
the Centers for Disease Control, which has not established 
standards, is giving us their professional judgment about when 
it is a risk for people living in those trailers.
    Even if we took the report from the manufacturers of over 
100 parts per billion, CDC, Dr. McGeehin, has testified over 
and over again that he thinks that is an awfully high amount of 
formaldehyde for people to be living with.
    Now, HUD has a different standard, and it is a different 
number that people can live with more formaldehyde than what 
Dr. McGeehin is pointing out. We have heard complaints that the 
manufacturer's study wasn't adequate, it wasn't done 
professionally, it as only a flash study. I don't know. We will 
go into that with the next panel. But what they knew from their 
evaluation, however complete it was, is that there was a 
problem going on; that they were getting very high ratings of 
formaldehyde in these trailers. Knowing that, they mislead--I 
believe actually mislead--FEMA when they said, ``We are not 
getting complaints,'' when, in fact, they were, and we have 
done some studies, but the impression was it is not a big 
problem but we will share our studies with you. So they had 
some sense that maybe FEMA wasn't going to ask, and they would 
share it, I presume, if they were asked, but FEMA didn't ask, 
which is not a good point for FEMA, and the trailer 
manufacturer didn't share the information but seemed to say we 
have some studies but we haven't had any complaints.
    If what they knew is that it was more than 100 parts per 
billion, and they knew it was way in excess of that, they 
should have had some suspicious--in fact, I believe they had 
some suspicions that people were at risk.
    Mr. Davis of Virginia. Mr. Chairman, in the next panel the 
companies can take care of themselves, and we ought to ask 
those questions there, but there is also ample evidence that in 
many of these cases they passed on this information to FEMA and 
FEMA either ignored it or didn't want to address the situation.
    As I noted before, almost 99 percent of the temporary units 
that were tested by the CDC in Louisiana and Mississippi met 
the HUD ambient air targets for formaldehyde standards. And 
these standards I think were bad standards and we ought to 
focus on changing these standards.
    Chairman Waxman. What kind of an argument is that to make 
that the manufacturers knew they met a standard that wasn't a 
good standard, and therefore it was OK for them not to share 
the information? I don't believe they shared the information 
with FEMA. They invited FEMA to ask them further information. 
FEMA never asked.
    Mr. Davis of Virginia. Well, we can settle that with the 
next panel, but if you are holding contractors to some moving 
standard, I don't think you will ever get anybody to do 
business with the Government again. That is the difficulty.
    Chairman Waxman. Whether this is a standard or not, I think 
a manufacturer of a product has a responsibility not to harm 
the people using the product.
    Mr. Davis of Virginia. We all agree with that. There is no 
question about that. But the question here is, if you are 
meeting a standard and it is the wrong standard, is that the 
Government's fault for setting the wrong standard or is it the 
contractors' problem for meeting a standard? I think we can 
have that argument, but you seem to want to put ex post facto 
standards into account, and I don't think that is appropriate.
    Chairman Waxman. There was no standard. We can all agree to 
that. There was no standard for them to meet.
    Mr. Davis of Virginia. Well, there was a HUD standard, and 
they met it 99 percent of the time. But we can have this 
discussion with the next panel. It is not my intention to 
defend anybody.
    Chairman Waxman. They have test results over 2,000 and 
4,000 parts per billion, which is over and above any of the 
standards, all of the standards. It is worse than any of the--
--
    Mr. Davis of Virginia. Mr. Chairman, there was no finding 
of any delivered trailer that had anything close to that, as 
Dr. McGeehin has testified. The highest standards they had is I 
think you had a couple over 500.
    Chairman Waxman. I am talking about what the manufacturers 
reported.
    Mr. Davis of Virginia. I am talking about what they 
delivered to the Government. That is what we are talking about, 
not what they found in reports.
    Chairman Waxman. Well, Mr. Tierney's time has expired and 
it is now Mr. Clay's opportunity to pursue questions.
    Mr. Clay. I am so glad I have some time left, Mr. Chairman. 
Thank you. Last winter CDC tested levels of formaldehyde in a 
group of randomly selected travel trailers and mobile homes. 
CDC finalized its report on these testing results just last 
week.
    Doctor, CDC found that trailers manufactured by Forest 
River, Gulf Stream, Keystone, and Pilgrim all had elevated 
levels of formaldehyde; is that right?
    Mr. McGeehin. Yes, sir.
    Mr. Clay. The CDC study states that formaldehyde levels 
tend to be higher in newly constructed trailers and during 
warmer weather; is that correct?
    Mr. McGeehin. Yes, sir. That is pretty well accepted.
    Mr. Clay. So, in your expert opinion, would the elevated 
levels that CDC discovered in the winter of 2007 been even 
higher 2 years ago in 2005?
    Mr. McGeehin. Yes, sir.
    Mr. Clay. And, in your expert opinion, would the 
formaldehyde levels that CDC discovered in the winter of 2007 
have been even higher during the summer?
    Mr. McGeehin. Temperature and humidity are direct drivers 
of formaldehyde levels, so I would say yes, sir.
    Mr. Clay. The CDC study provides us with a spapshot of what 
families were exposed to last winter, but when we account for 
the passage of time and temperature fluctuations, these 
families were likely exposed to even higher levels of 
formaldehyde than indicated in your report; is that correct?
    Mr. McGeehin. Yes, sir. That is in our report.
    Mr. Clay. It is in your report?
    Mr. McGeehin. Yes, sir. That exact language is in our 
report.
    Mr. Clay. You know, what is so troubling about the decision 
by Gulf Stream not to inform the residents of its testing more 
than 2 years ago is the fact that no one was made aware who 
lived in these trailers and mobile homes. Gulf Stream found 
that every trailer it tested had formaldehyde levels higher 
than 100 parts per billion and found that some had as high as 
500 parts per billion. We all know that FEMA failed miserably 
in the wake of Hurricanes Katrina and Rita. But these poor 
hurricane victims have now been subjected to a second disaster 
and years of unnecessary and harmful exposure to a known 
carcinogen.
    Do you think they should have been notified a little 
sooner?
    Mr. McGeehin. Again, sir, I will say what I said in the 
beginning, that as much information as could be given to 
residents about effects that might be harmful to them is a good 
thing. I mean, we believe in disseminating that sort of 
information. I am not commenting on any of the results that we 
are talking about because I haven't seen the testing 
methodology, but your question is that sort of knowledge is a 
good thing for people to have, yes.
    Mr. Clay. Is there a difference in a family taking a 
weekend trip in one of these homes or camping out in the homes 
as compared to someone living in the homes for over a year?
    Mr. McGeehin. Dramatically different. Yes, sir.
    Mr. Clay. Dramatically different. And have you documented 
any of that?
    Mr. McGeehin. No, but, again, when we go back to you are 
looking at exposure to environmental contaminants, which I have 
done for the last 25 years, you are looking at two basic 
things: the intensity of exposure and the duration of exposure. 
These units weren't designed or built for people to live in for 
2\1/2\ years. And somebody going with their fly rods with their 
children up to fish for a weekend, obviously your duration of 
exposure is much less, and also most of the time those people 
are spending outside of the unit. They are outside. They are 
hiking. They are camping.
    If we are talking about these units being used on large 
lots where people who are living with their children 24 hours a 
day, both the intensity and duration of exposure is high.
    Mr. Clay. Thank you for your response.
    Mr. Chairman, I yield back.
    Mr. Issa. Would the gentleman yield?
    Mr. Clay. I yield to the gentleman from California.
    Mr. Issa. Just for full disclosure, since you said it would 
be good for us to know, and I think you are right, I want to 
reiterate that in the room we are in right now we are at 80 
parts per billion based on measuring with your gold standard 
meter, so please be aware that you are breathing at that level, 
and if you need to leave let us know if anyone needs to leave 
early.
    Mr. McGeehin. What sampling methodology was that?
    Mr. Issa. I don't know what sampling methodology. That was 
a direct read instrument.
    Chairman Waxman. What is the sampling methodology that we 
are being told----
    Mr. Issa. It was the same methodology as Gulf Stream, and 
that was the reason that our staff did it and got the 40 to 80, 
depending upon what part of the Capitol you are in. I just 
wanted everyone to be aware that we could be off plus or minus 
19 percent, but we do want people to know that this carpet 
apparently, along with anything else that has been put in this 
over the years, that it emits. We apparently are well beyond 
the 16. I think full disclosure, you are absolutely right.
    Mr. Davis of Virginia. Mr. Chairman, people in the anteroom 
will be relieved they are not here in the main room.
    Chairman Waxman. The gentleman's time has expired.
    All members of the committee have asked questions, and Mr. 
Donnelly is with us, and I want to give him any opportunity he 
wishes to take at this point.
    Mr. Donnelly. I want to thank the chairman for letting me 
be present today. I will submit a written statement for the 
record. I want to thank the ranking member, as well.
    I guess I want to thank the chairman also for inviting 
FEMA. I think FEMA's absence here to explain their standards 
and their actions, that they really have eliminated a part of 
the answer here. I wish that they were, in fact, present.
    Dr. McGeehin, what I want to ask you is, when you did your 
testing for the trailers, did you do any comparison tests by 
taking trailers off the lots from places here in Maryland or 
Virginia that were built in regular production?
    Mr. McGeehin. It depends on which you are talking about. 
The occupied trailer study had parts of trailers in it that 
were off the lot, and the Lawrence Berkeley National Labs had 
two spec trailers and two off-the-lot trailers.
    Mr. Donnelly. Ones that were just being sold at, like, 
Maryland Trailer Sales, or nothing special that was built for 
FEMA, but, in fact, was regular production?
    Mr. McGeehin. Off-the-lot trailers. That is my 
understanding.
    Mr. Donnelly. Did you test those?
    Mr. McGeehin. We did. They were part of both studies.
    Mr. Donnelly. Did you find any difference between off-the-
lot trailers and trailers that were designed for FEMA?
    Mr. McGeehin. Well, I want to be cautious in this. We did a 
study with Lawrence Berkeley that only had four trailers, and 
so therefore I don't want to make any generalizations from 
this. We did look at the two spec trailers and the two off-the-
lot trailers, and the two spec trailers on the whole unit 
levels of formaldehyde were higher, and the two off-the-lot 
trailers were lower, but this study was not designed to look at 
that difference and I don't want that generalized because that 
would be a mistake and it would be taking the science beyond 
what it was designed to be.
    Mr. Donnelly. Did you know of any different production 
standards for----
    Mr. McGeehin. I don't know that.
    Mr. Donnelly [continuing]. Trailers that were used for 
families in Louisiana or Mississippi or trailers that were 
simply shipped to dealers who have been dealers for years of 
these companies?
    Mr. McGeehin. I have no knowledge about any separate 
manufacturing process for the spec trailers versus the off-the-
lot. I don't know anything about that.
    Mr. Donnelly. Let me ask you this: 44 components were 
tested.
    Mr. McGeehin. Forty-five.
    Mr. Donnelly. Forty-five. Forty-four met all HUD standards?
    Mr. McGeehin. Right.
    Mr. Donnelly. OK. And did FEMA provide, as far as you know, 
any standards to these companies in regards to formaldehyde to 
follow?
    Mr. McGeehin. It seems that everybody on the committee is 
more familiar with the correspondence between FEMA and the 
manufacturers than I am, so I really can't answer that. I am 
not aware of that, and you are all probably more aware of it 
than I.
    Mr. Donnelly. So you don't know of any standards that were 
violated in any way in regards to formaldehyde?
    Mr. McGeehin. I can't really comment on that. I don't know 
of anything about that at all.
    Mr. Donnelly. Let me ask you this: in regards to the Tulane 
study, do you know anything unique that would have been about 
site-built homes that were tested in that study?
    Mr. McGeehin. I do not know anything unique about the site-
built homes.
    Mr. Donnelly. And the results of 370 parts per billion is, 
in fact, higher than what some of the trailers were at; isn't 
that correct?
    Mr. McGeehin. Sure. Yes.
    Mr. Donnelly. So I guess one other question is: why didn't 
we test site-built homes also?
    Mr. McGeehin. Well, there have been a number of very large 
studies that tested site-built homes around the country, well-
done studies.
    Mr. Donnelly. In regards to the Katrina situation?
    Mr. McGeehin. Well, it doesn't have to be in regards to the 
Katrina situation. There are site-built homes, and they were 
tested with the same methodology that we used, and those 
results are comparable.
    Mr. Donnelly. Well, what I am asking is, in regards to 
homes in the Katrina region at the same time that these 
trailers were down there, was there any test done to compare--
--
    Mr. McGeehin. No.
    Mr. Donnelly [continuing]. The levels of those homes as 
opposed to the levels of the trailers?
    Mr. McGeehin. No. The report is as it was: 519 occupied 
FEMA-supplied trailers.
    Mr. Donnelly. OK.
    Mr. Chairman, thank you very much, sir.
    Chairman Waxman. Thank you, Mr. Donnelly.
    Dr. McGeehin, thank you very much for your testimony. We 
very much appreciate it. If there are further questions, we may 
submit them in writing to you for a response for the record.
    Mr. McGeehin. Thank you for the opportunity.
    Chairman Waxman. Our next panelists will consist of the 
following individuals: Mr. Jim Shea, Jr. Mr. Shea is the 
chairman of Gulf Stream Coach and has been with Gulf Stream for 
more than three decades and is responsible for the company's 
housing division.
    Mr. Steve Bennett is the president of Pilgrim 
International.
    Mr. Ronald Fenech is the president and chief executive 
officer of Keystone RV. Keystone RV is a subsidiary of Thor 
Industries.
    And then Mr. Peter Liegl is president of Forest River. He 
founded the company in 1996.
    We welcome each of you to our hearing today. Your prepared 
statements will be put into the record in their entirety. We 
will ask each of you to limit your oral presentation to 5 
minutes. There is a little device on the table that will turn 
green for 4 minutes, yellow for the last minute, and then turn 
red when the time is up. When you see that it is red, you 
should realize your time is up and try to make your concluding 
comments.
    It is the practice of this committee that all witnesses who 
testify before us do so under oath, so please rise and raise 
your right hands and I will administer an oath to you.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that each of the 
witnesses answered in the affirmative.
    Mr. Shea, why don't we start with you.

  STATEMENTS OF JIM SHEA, CHAIRMAN, GULF STREAM COACH, INC.; 
 STEVE BENNETT, PRESIDENT, PILGRIM INTERNATIONAL, INC.; RONALD 
   J. FENECH, PRESIDENT, KEYSTONE RV, INC.; AND PETER LIEGL, 
             PRESIDENT AND CEO, FOREST RIVER, INC.

                     STATEMENT OF JIM SHEA

    Mr. Shea. Good morning, Chairman Waxman, Ranking Member 
Davis. My name is Jim Shea and I am chairman of Gulf Stream 
Coach. I appreciate the opportunity to discuss the travel 
trailers that our company produced and sold to FEMA. I have 
some brief opening remarks, but ask that my full statement be 
made part of the hearing record.
    Gulf Stream is a small-town American company committed to 
manufacturing quality recreational vehicles for its customers. 
Our travel trailers are built by hard-working, dedicated 
Americans in the heartland of our Nation. Safety is a key 
component to our success.
    Just 2 days before Hurricane Katrina hit the Gulf Coast, 
Gulf Stream received an urgent call from FEMA to provide 25,000 
travel trailers to house possible hurricane victims. Gulf 
Stream was prepared to meet FEMA's critical request, because at 
the time we were the only manufacturer approved for rail 
shipment of travel trailers.
    Almost every year since 1992, FEMA has purchased Gulf 
Stream Postal products from independent dealers to respond to 
natural disasters. In 2005 for the first time FEMA contracted 
directly with Gulf Stream to provide a total of 50,000 
emergency travel trailers. It is important to note that FEMA's 
specifications did not include any requirement with respect to 
formaldehyde emission levels.
    The FEMA travel trailers we manufactured followed the same 
specifications as those we delivered to hurricane victims in 
2004. In order to meet FEMA's urgent request, Gulf Stream 
ramped up its production capacity and realigned its plant 
operations immediately upon receipt of the purchase order. We 
took special care to provide safe and quality product for the 
hurricane victims who temporarily were going to live in the 
travel trailers. Our FEMA units had four emergency egress 
windows instead of the required minimum of two. It was Gulf 
Stream's practice to do additional life safety systems testing, 
including electrical, gas supply, smoke detection, and carbon 
monoxide detection beyond what we would do for our regular 
production for regular customers.
    In addition to what was routinely performed on the units 
for the manufactured public, and FEMA inspectors were onsite at 
our Indiana plants during the manufacturing process, and FEMA 
performed inspections at the hurricane zone staging areas. 
Furthermore, Gulf Stream had representatives onsite in 
Louisiana to do additional inspections after shipment.
    Today, just as when we produced travel trailers for FEMA, 
there are no Federal standards governing formaldehyde in the 
manufacture of travel trailers. The lack of such a standard 
leaves our industry with no clear definitive guidance on the 
issue. Although there are still no formaldehyde standards for 
covering travel trailers, Gulf Stream in 2007 voluntarily 
adopted the stringent product standard for formaldehyde 
emissions proposed by the California Air Resources Board. To 
our knowledge, Gulf Stream is the first RV company to receive a 
third-party certification of our applicable wood materials 
documentation, control processes, and related verification 
testing.
    Even without a Federal standard, Gulf Stream has had a 
longstanding policy to purchase wood products that satisfy the 
HUD low-formaldehyde emissions level for manufactured housing, 
even though HUD standards do not apply to the manufacture of 
travel trailers.
    Several design aspects of our travel trailers also 
increased ventilation beyond what was required by the FEMA 
specifications.
    Gulf Stream received the first complaint regarding 
formaldehyde concerning these FEMA travel trailers in March 
2006. Obviously, we were concerned about the complaints and 
tried to be as proactive as possible by taking the following 
steps: First, we sought information regarding complaints 
received by FEMA; second, we addressed the few complaints Gulf 
Stream received regarding its travel trailers, but were 
instructed by FEMA in May 2006 not to directly contact trailer 
occupants; third, we attempted to gather information on ways to 
identify and reduce ambient levels of formaldehyde through 
better ventilation solutions and processes; fourth, we provided 
FEMA representatives with information related to ventilation of 
travel trailers and other measures to reduce formaldehyde 
levels for sensitive people; fifth, we offered to participate 
with FEMA in joint testing of the travel trailers. FEMA did not 
accept our offer to do so; and sixth, we offered to share with 
FEMA the results of some informal, non-scientific screenings of 
FEMA-occupied travel trailers performed in late March and April 
2006. FEMA did not accept our offer.
    Gulf Stream has demonstrated its commitment to quality and 
safety for the residents from the beginning. Our record shows 
that we were ready, willing, and able to assist FEMA with any 
resident concerns.
    Mr. Chairman and members of the committee, on behalf of 
Gulf Stream and our dedicated employees, that concludes my 
opening remarks. I am happy to answer your questions the 
members of the committee may have.
    [The prepared statement of Mr. Shea follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Shea.
    Mr. Bennett.
    Mr. Bennett. I have no opening statement.
    Chairman Waxman. No opening statement.
    Mr. Fenech.

                 STATEMENT OF RONALD J. FENECH

    Mr. Fenech. Mr. Chairman and members of the committee, my 
name is Ron Fenech and I am proud to be here this morning to 
represent the 3,000 men and women who work assembling 
recreational vehicles for Keystone RV and our thousands of 
customers.
    After the Gulf Coast hurricanes of 2005, as with all 
Americans, our employees sympathized with the hundreds of 
thousands of people who overnight found themselves homeless. 
Emergency workers were faced with an incredible challenge as 
they scrambled to rescue survivors, account for the missing, to 
feed those in need, and there was an immediate critical need 
for basic shelter.
    We have been invited here today to discuss the CDC finding 
with regard to formaldehyde in trailers. When it comes to 
assessing safe levels of formaldehyde, there is no consistent 
Government standards. And, as the CDC, itself, stated in its 
February 2008 formaldehyde report, there is no specific level 
of formaldehyde that separates safe from dangerous.
    The recreational vehicle industry cannot address the 
formaldehyde issue alone. It is much broader. In fact, the 
materials that Keystone uses to assemble its trailers are 
generally the same types of materials used in home construction 
and can be found in local home improvement stores.
    We are looking to the Government to evaluate the science 
and provide industry with the uniform standard. Once that 
standard has been developed, we hope the home construction 
industry will join us in adopting that standard. Together, 
these actions can lead to a workable national approach to this 
issue.
    We join with others in applauding the recent announcement 
by the EPA that they will conduct a comprehensive review and 
will, we hope, announce a clearly articulated standard that our 
industry and our suppliers can follow. Until then, we have not 
and we will not stand by idly. The Recreational Vehicle 
Industry Association has recently announced compulsory 
standards that require manufacturers to build all units using 
CARB compliant wood by January 1, 2009, and CARB certified wood 
by July 1, 2010. And at Keystone we intend to beat those 
deadlines. We have informed our suppliers that as quickly as 
possible we will only purchase supplies that meet CARB 
standards.
    Hurricane Katrina was the worst natural disaster in modern 
U.S. history. Hundreds of thousands of Americans needed 
temporary shelter, and I am proud to say that our industry was 
part of the solution. I sincerely hope that there will never 
again be another disaster that requires our vehicles to be used 
under such extreme conditions for such lengthy periods of time, 
but if there is, the lessons learned from this process will 
inform both industry and Government to ensure a sound response 
to any need that may arise.
    With that, I thank the committee for the opportunity to 
appear here today and to answer any questions that you may 
have.
    [The prepared statement of Mr. Fenech follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Fenech.
    Mr. Liegl.

                    STATEMENT OF PETER LIEGL

    Mr. Liegl. Thank you, Mr. Chairman and members of the 
committee. My name is Peter Liegl. I am president of Forest 
River. On behalf of more than 5,000 employees, thank you for 
the chance so we can tell you about what our company does. I am 
especially proud to tell you how Forest River workers pitched 
in to help the victims of Hurricane Katrina.
    We started Forest River in 1996. It began in the part of 
Indiana where people of different backgrounds share a strong 
work ethic and what we call Hoosier values. We think that 
because of what we do lots of American families are able to get 
closer to the outdoors and to travel and explore this great 
country. Today, 12 years later, we currently have 5,000 
employees who work in more than 60 locations. Forest River has 
plants in Indiana, California, Michigan, Texas, Georgia, and 
Oregon. Last year we built and sold over 100,000 units. We are 
still learning and we are still improving. Our folks still work 
hard and still care what they do.
    They cared in 2004 when hurricanes hit Florida. Forest 
River employees built 800 units to FEMA's specifications, and 
our folks were proud. We never received a complaint about one 
of them.
    They cared in 2005 when Hurricane Katrina and Rita 
devastated the Gulf Coast. Like other Americans, Forest River 
employees wanted to help, and, again, they did. This time we 
were asked to build 35,000 RVs. We had to decide what made 
sense for our workers, our suppliers, our dealers, and our 
customers, so our team at Forest River came up with a 
production schedule that would allow us to build 5,000 trailers 
to help the victims, and Forest River workers built those 
trailers on the same production line using the same materials, 
the same components, the same quality standards, the same 
inspectors as they do for the product they build every day. The 
quality was the same as all the other units we build.
    The units we built for the Gulf Coast received the RVIA 
seal because they met RVIA standards.
    Of course, our folks couldn't build these 5,000 units for 
free. Like every business, we have to pay our workers and our 
suppliers. We have to earn enough to keep things going, but we 
never thought about charging higher prices. We sold the FEMA 
trailers at the same modest profit levels as our normal sales. 
Our overall profit that year was about the same as it was in 
the years before and the years after Katrina.
    Today's hearing involves formaldehyde. We all know there is 
some formaldehyde in wood products, carpeting, fabrics used in 
the RVs. It is also used in building homes, apartments, and 
office buildings. We all agree we don't want formaldehyde or, 
for that matter, any other substance to reach levels where it 
is a serious health threat. Most of us aren't doctors or 
scientists, and those people who are doctors and scientists 
don't agree on the level of formaldehyde that are safe or not 
safe. There isn't an agreement on how to measure formaldehyde 
levels.
    No one has all these answers yet. Certainly I don't. But 
what I can tell you is Forest River's experience.
    First, formaldehyde has not historically been an issue. 
Over the dozen years we have been in business, we have made and 
sold over one million units. Out of those million-plus units, I 
think we only had three instances where customer concerns 
actually required our testing of the vehicles. In two of the 
cases, the formaldehyde level tested quite low. In the third it 
was pretty clear at the end of the day that whatever the 
problem was coming from, it wasn't on the manufacturer's end.
    Given that experience, literally less than a handful of 
instances of this sort out of a million units, I think you can 
understand why I say that formaldehyde has not historically 
been an issue with Forest River products and customers.
    The second point is we have not been sitting idly by 
waiting for doctors and scientists to figure out the answers. 
We may not know the answers, but we know that it can't hurt by 
moving closer to the California stricter formaldehyde standard 
for wood products even before it was recommended in the 
industry, which we have done.
    In closing, I want to thank you again for your allowing us 
to share Forest River's story. Our employees are proud of the 
product we make and the company they have helped build.
    I must also tell you candidly that many of our workers are 
now confused and hurt about the charges about the quality of 
RVs, but they know when it comes to Forest River products 
nothing can be further from the truth. But I think they also 
have the faith, as I do, that responsible people will be fair 
and will make the decisions on fact.
    Thank you, Mr. Chairman and the committee, for letting me 
tell you my story. I will answer any questions that you might 
have.
    [The prepared statement of Mr. Liegl follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. Thank you, Mr. Liegl.
    We are now going to recognize Members to ask questions for 
5 minutes apiece, and I will start off the questions.
    Mr. Shea, I wrote to Gulf Stream on February 14th of this 
year and I asked your company's help in understanding why a 
Gulf Stream travel trailer sold to FEMA would have high levels 
of formaldehyde, and I want to read what Gulf Stream said in 
response to my question on March 7th. Here is what they said: 
``Gulf Stream respectfully disagrees with the premise of the 
committee's question, i.e., that formaldehyde levels in the 
trailers it sold to FEMA following the Gulf Coast hurricanes of 
2005 were high.''
    Given what we know now, I find this response astonishing.
    In March 2006 trailer occupants began to complain about 
formaldehyde. On March 21, 2006, Steven Miller of FEMA e-mailed 
your brother Dan Shea and asked him if Gulf Stream had ``the 
capability to put this to bed.'' Were you aware of this e-mail?
    Mr. Shea. Yes, sir.
    Chairman Waxman. Your brother responded that he would send 
a person to Baton Rouge to test units. From the end of March 
until May 2006 Gulf Stream vice president Scott Pullin tested 
FEMA trailers. He tested approximately 50 trailers, including 
11 occupied trailers. Mr. Pullin's test indicated formaldehyde 
levels at or above 100 parts per billion within every occupied 
travel trailer he tested; 4 of the 11 occupied trailers had 
levels above 500 parts per billion.
    Mr. Pullin also tested over 25 new Gulf Stream travel 
trailers that had not yet been deployed for displaced 
residents, and over 10 of these trailers contained formaldehyde 
levels in excess of 900 parts per billion. One Gulf Stream 
trailer had formaldehyde levels of 2,690 parts per billion.
    In 2006, Gulf Stream knew better than anyone that 
formaldehyde levels in the travel trailers it made for FEMA 
were high, and just last week the Centers for Disease Control 
confirmed that even in the winter of 2007 and 2008 56 percent 
of Gulf Stream's travel trailers had elevated levels of 
formaldehyde.
    I have one question for you, Mr. Shea. Do you still 
disagree that formaldehyde levels in FEMA's Gulf Stream 
trailers were high?
    Mr. Shea. Well, Mr. Chairman, when I reviewed the CDC 
report, the most recent CDC report on occupied trailers, I see 
that our levels of occupied units fell----
    Chairman Waxman. We cannot hear you.
    Mr. Shea. Yes. I would just like to repeat, sir, that what 
we saw in the occupied unit testing that the CDC did was that 
our units fell in what they would term the intermediate level.
    Chairman Waxman. How about your own testing?
    Mr. Shea. We did not do testing, sir. We used an informal 
device, a screening device. It is not a scientific device. It 
is not accepted by NIOSH. It is not accepted by any 
organization. It could have been used by anyone, any company, 
any agency. It is not testing, sir. It is a screening device 
that picks up many other components, chemical components. It is 
not testing.
    Chairman Waxman. Whatever the validity was of that test, it 
certainly gave you an indication of very high levels of 
formaldehyde in your own trailers, didn't it?
    Mr. Shea. Let me tell you, we were a proactive company, 
sir. One of the first things we did--in fact, Mr. Pullin, a 
long-time technical employee, vice president of this company 
went into the field, was in the field on other matters, and he 
canvassed and talked to other occupants, to varied trailer 
residents. They asked them what their experience was, and they 
said they were very happy with their trailers. They weren't 
having any problems. They were enjoying their trailers. There 
were no issues.
    Now, at the time that he did quickly take a snapshot 
deployment with this tool, it was screening. It was not 
testing. It was a quick snapshot that would have reflected 
anything that the residents would have done in the unit at the 
time.
    I remind you that they were not complaining. There were not 
symptoms. He also----
    Chairman Waxman. Well, you did have some complaints, 
because I just read one of the complaints. In fact, one of the 
people said please, please, please help me. I have this 
formaldehyde, and it is causing problems in my breathing--to 
paraphrase it.
    Mr. Shea. Yes, sir. I would like to----
    Chairman Waxman. And, notwithstanding that, you did the 
testing and you told FEMA you didn't get any complaints, and 
you told them you got some test results, but you didn't tell 
them what they were. They didn't ask. You told them if they 
asked, then you would share it. But your own test results 
showed high levels of formaldehyde.
    Mr. Shea. Yes. I would like to set the record straight 
there, sir. We communicated with FEMA. Actually, we asked FEMA, 
Do you have any complaints? We wanted to assist. We wanted to 
visit people. We wanted to lend whatever we could for 
sensitized individuals. We had three complaints come in 
directly to ourselves in that March period after the initial 
news reports, and we investigated all three of them. Then in 
mid-May, after we had asked FEMA for what complaints they had, 
which they directed two people to us, two of those people--none 
of them had formaldehyde complaints. What they had was one 
complained on odor from an improperly hooked-up sewer. The 
other was concerned about wanting to buy her unit and she had 
security concerns. Those are the two complaints that we 
received from FEMA.
    Chairman Waxman. Mr. Shea, my time is up, but I do want to 
tell you that if you have done some kind of testing and you see 
the kind of high levels, even over 2,000 parts per billion, in 
some of your trailers, the response, I think, of a responsible 
businessman should have been to test further, to find out what 
is going on, to take some kind of responsible action and not to 
come before Congress and say FEMA didn't tell me they had 
complaints--of course, they didn't know what you knew--and 
therefore you didn't have to do any more testing yourself, even 
though you got these alarming results. That is what you didn't 
do. You didn't do more tests. You didn't tell FEMA there is a 
problem. And you didn't take the action that I would think 
would be a responsible action of a responsible business.
    Mr. Shea. I would love to respond to that, sir. Sir, there 
is a difference here between testing and screening. There is a 
difference between unoccupied units and occupied units. We did 
unoccupied unit screening to better be able to inform FEMA how 
to properly ventilate units. We also were utilizing some 
optional devices that we were using in the unoccupied 
screenings because we could generally screen for how indoor air 
quality changed. I would remind you there are many components, 
as Dr. McGeehin said, in indoor air. This unit would have been 
sensitive to many of them. So what we were able to do is we 
could advise FEMA better. Our counsel asked us to make sure 
what we said to FEMA was as accurate as possible. We tested the 
performance of the ventilation systems that we provided with 
the unit, plus some optional systems to help with sensitive 
individuals.
    There is a difference between what we did with occupied 
units versus the screenings of unoccupied units.
    Chairman Waxman. My time is over. I am just going to say it 
sounds like you handled it very carefully as a public relations 
and as a legal problem, but I think you had more of a 
responsibility to the health of the people that were living in 
your trailers.
    Mr. Davis.
    Mr. Davis of Virginia. I would yield my 5 minutes to Mr. 
Souder.
    Mr. Souder. And I would ask the chairman to be generous if 
I go over just a little bit, as well.
    First I want to welcome all of you as fellow Hoosiers and 
having huge facilities in my District and employing lots of 
people who are already hundreds losing their jobs because of 
the gas prices, the mileage restrictions, the ability to get 
vehicles that can tow. Ten percent of Americans of some sort of 
vehicle. Most are from northern Indiana and Congressman 
Donnelly and my Districts. It is the danger of how we do 
something like this is, as our guys try to meet these 
standards, try to follow whatever the Government says, you have 
inspectors on your sites, you just push these kind of jobs to 
China where they don't meet these kind of inspections, where 
there is no conscience, and we wonder why we lose American 
jobs.
    It is incredibly frustrating. We all want to find out what 
the truth is.
    Mr. Shea, wasn't FEMA at the plants all day?
    Mr. Shea. I am sorry, sir?
    Mr. Souder. Weren't they at your facilities all day?
    Mr. Shea. Yes. During the course of our production, as I 
understand, because we were a direct manufacturer, they had an 
inspector in each Indiana plant every day receiving units as 
they came offline and inspecting them.
    Mr. Souder. Without getting into confidential information, 
and I am not asking you to disclose this, but the type of test 
you did on these trailers, how expensive was it to take the 
desiccator test that you did that is not the gold standard, 
that has a wide variation of accuracy?
    Mr. Shea. This is a device that is called a formaldemeter. 
It is not a scientific tool. It is not really what they would 
call a desiccator test, which is another imprecise type of 
testing. This is a quick snatch method, and it is just a 
screening tool. If you look in the directions to the piece of 
equipment, it is a screening tool. It doesn't claim to be a 
testing tool. It tells you that there are other components that 
it absorbs.
    Our individual wasn't experienced in using it. It did 
provide some benefit in terms of seeing how indoor air changes 
occurred, but it is certainly not testing, and we didn't employ 
that. And certainly at our plant location with FEMA inspectors 
there was no issue about that. It was never an issue with FEMA 
inspectors. This was during the time that we were producing 
these units.
    Mr. Souder. Would this have been an expensive test for FEMA 
to conduct?
    Mr. Shea. Well, anybody could have used one of these 
devices, any organization. FEMA did OSHA testing in fall of 
2005, so they were familiar with closed-up units, unoccupied 
units. They did more OSHA testing, I think the record shows, in 
March, late March, after this became an issue. I think those 
results are available. So they knew what closed-up, sealed-up 
units that had been cycled to 80 to 100 degrees of hot boxes 
would do. Any structure that was closed up, even a house that 
was closed up and sealed up and cycled to 80 to 100 degrees 
would have decreased indoor air quality. There is just no two 
ways about it.
    Mr. Souder. Well, the scary thing about if we are not 
careful in hearings and we aren't trying to look at fundamental 
questions with accurate science, one of our challenges here is 
that I met with 9 of the 10 companies named in the early 
lawsuit total. They had the three complaints that you had 
talked about. Then the lawsuits started, and all of the sudden 
legal liability starts. Now you are being criticized for doing 
a very simple test that could have been done by the Government, 
and the question comes: what employer or company in America is 
going to expose themselves to voluntary cooperation if this is 
the end result, that the proliferation of suits all over 
America right now--you know, people say, I heard in Katrina, I 
read in the newspaper, I heard on TV, not on any science, as we 
are learning. The 390 parts per billion, we keep sliding 
between parts per million and parts per billion, don't have any 
standards. You are trying to cooperate. Instead, you get your 
head beat in.
    Do you plan to ever deal with the Government again?
    Mr. Shea. Sir, this is an incredible quandary. We have seen 
a specification--it is not a standard--put forth by FEMA in 
their latest standards. It is 16 parts per billion. Of course, 
very recent studies with new technology show that this is 
within the range of human breath. This is within the range of 
normal human breath, what people normally breathe out from 
their normal metabolism, irrespective of what is in the air.
    Well, how can a company, why would a company take on that 
kind of liability? It would be so easy for something to occur 
either naturally or from user sources that would double or 
triple this specification. This company would never take that 
liability on, sir.
    Mr. Souder. Within the broad definitions of 5 minutes I 
have one more supplemental question. You have done FEMA before. 
It has been a significant part of your business.
    Mr. Shea. Yes. We have provided units through dealerships 
since 1992. FEMA came directly to us and asked us for a direct 
quotation and proposal at the beginning of this hurricane 
before the hurricane actually hit New Orleans.
    Chairman Waxman. Thank you, Mr. Souder. Your time has 
expired.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Shea, you know, I know the chairman referenced a letter 
from a lady in which she said, ``There is an odor in my trailer 
that will not go away.''
    Mr. Souder. Mr. Chairman.
    Mr. Cummings. ``It burns my eyes, and I am getting 
headaches every day. I have tried many things, but nothing 
seems to work. Please, please help me.'' You are familiar with 
that, are you not, Mr. Shea?
    Mr. Shea. It would be helpful for me to see the exact 
customer that you refer to, sir. That would refresh my memory.
    Mr. Cummings. Well, you heard the words. If that was your 
wife, would you be concerned about her living in a trailer?
    Mr. Shea. I can give you the letter that we responded to, 
sir, to FEMA. When we got that report and we communicated with 
FEMA, my recollection is it was with regard to a Mr. Reeser.
    Mr. Cummings. OK.
    Mr. Shea. Here is what we said, if I can quote.
    Mr. Cummings. Very briefly, because I have a lot of 
questions and a little bit of time.
    Mr. Shea. Yes, sir. ``I do want to take the opportunity to 
reinforce our position previously communicated to FEMA that 
Gulf Stream is ready, willing, and able to work with FEMA with 
regard to any complaint, including sending a representative 
within 24 hours to work with your contractors to inspect, test 
. . .''----
    Mr. Cummings. Good.
    Mr. Shea [continuing]. ``--or do whatever is reasonably 
necessary to . . ''----
    Mr. Cummings. Mr. Shea, you are coming right where I want 
you to be, because I want to talk about some of your 
correspondence, not in addition to what you just read. I would 
like to share with you what Gulf Stream disclosed to FEMA--and 
I know you are familiar with this--related to formaldehyde in 
its travel trailers in May 2006. It has been referenced quite a 
bit here. And Gulf Stream sent a letter to FEMA and said, ``We 
want to followup on our recent conversations regarding the 
travel trailers supplied to FEMA. We would like to reiterate 
our willingness to assist you in addressing any concerns about 
our products. Our informal testing has indicated formaldehyde 
levels of indoor ambient air of occupied trailers far below, 
for instance, the OSHA standard of .75 parts per million, 750 
parts per billion. We are willing to share these informal test 
results with you and, as mentioned during our meeting, if FEMA 
wishes to conduct formal testing protocols on any designated 
units, we are willing to participate in that testing.''
    Now, you spent a lot of time, I am sure, in drafting that 
letter. The documents that we received show that you spent over 
a month getting the wording right. How do you interpret your 
own letter? And are you saying that your testing showed a 
formaldehyde problem, or are you saying that your testing did 
not show a problem?
    Mr. Shea. Well, sir, going back to the framework of the 
time, there were two regulatory standards that I was familiar 
with. One was the OSHA permissible exposure level for workers 
that would be exposed for their working life; the other was the 
HUD target regulatory level. Those were the two. Those are the 
two now. There was one that came up in the press. That was 
referenced as a .1 EPA ``safety level'' by some activist 
groups. But when I looked that up it said above this level 
sensitive individuals may experience symptoms. It wasn't a 
safety level, and I did ask some experts did EPA have a 
standard. They told me that EPA didn't have an outdoor standard 
for formaldehyde at the time, it didn't have an indoor standard 
for formaldehyde at the time.
    So in terms of how----
    Mr. Cummings. You understand that before you sent that 
letter that the CDC had said that they thought that the levels 
of 100 were dangerous? You knew that, right? You didn't know 
that? I see people shaking their heads behind you.
    Mr. Shea. I have no recollection of--the CDC came out with 
their interim report and took a position. The original ATSDR 
position was that after the EPA testing that was done in the 
fall was that .3 parts per million was acceptable. They changed 
that later, but that was well after this time, sir. That was in 
2007. That was in, like, February 2007 after EPA did testing of 
unoccupied units in September 2006.
    Mr. Cummings. So this is not the record on April 24, 2006, 
Gulf Stream's outside counsel sent both Jim and Dan Shea a 1997 
document created by the Consumer Product Safety Commission 
entitled, ``An Update on Formaldehyde.'' The document included 
the following information: formaldehyde is a colorless, strong-
smelling gas. When present in air at levels above .1 ppm it can 
cause watery eyes, burning sensations in the eyes and nose and 
throat, nausea, coughing, chest tightening, wheezing, sick skin 
rashes, and allergic reactions. You are saying that is not 
accurate? Is that what you are saying?
    Mr. Shea. That is the language that came off of the EPA 
sensitivity recommendation. As I recall, sir, that is for 
sensitive individuals. And we have always been concerned to 
help with any individuals that had sensitivities. We know that 
there are sensitive people, sir.
    Mr. Cummings. All right.
    Chairman Waxman. Thank you, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Waxman. Your time has expired.
    Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman.
    This home test kit, this formaldemeter, how accurate is 
that?
    Mr. Shea. Well, sir, it varies. It can be up and down. if 
you sprayed an air freshener and then took a screening it would 
be eight parts per million sometimes. It is reactive to 
ethanol, methanol, phenol, all kinds of things. It is an 
indicator of air flows, ventilation, but in terms of absolute 
testing, nobody would accept it. NIOSH doesn't accept it. It is 
not acceptable in a court of law. Some people may be more 
accurate than others. Our individual wasn't well trained in 
this or trained in calibrating it.
    Mr. Burton. So it is an indicator, but it is not really 
scientific?
    Mr. Shea. It is an indicator that formaldehyde is likely 
present.
    Mr. Burton. Now, in these 11 units that were checked with 
the formaldemeter, there were four that were above 500, but the 
other seven were below the 500 level?
    Mr. Shea. That is correct, sir.
    Mr. Burton. But that wasn't scientific?
    Mr. Shea. No, it wasn't scientific. Of course, we recognize 
that if anybody had smoked a cigarette an hour before or cooked 
or something, that influences the level, but what our main 
thing was, these people were very happy. One person was 
described by Mr. Pullin as being ecstatic that he finally had a 
place where he could go to, a refuge, something that was air 
conditioned, a totally self-contained living unit, and everyone 
was happy. There were some people that were older people. There 
were some young children, toddler age. They were happy with 
their units. They were not complaining about their units. They 
were not experiencing symptoms.
    We went back in that proximate time--Mr. Pullin did--to 
revisit with these people in that late April period before we 
asked FEMA to come in and talk to them further about these 
canvassing that we did.
    Mr. Burton. You know, I don't think you can answer this 
question, any of you, but if I took a HUD-produced house or 
HUD-funded house--and there are an awful lot of them around 
this country right now that are vacant--and you closed it up, 
and you left it closed in very hot weather for, say, a couple 
of weeks or longer, would the parts per billion be equivalent 
to what you saw in a mobile home, manufactured housing?
    Mr. Shea. I do know this, sir: any structure, if you close 
it up, seal it up, cycle the temperature to 80 to 100 degrees, 
you are going to have a reduction of indoor air quality. There 
will be higher levels of chemical constituents, especially if 
you have attached garage with a car in it. I just went to a 
lean building seminar. The presenter said one of the best 
things you could do for indoor air quality was to have a 
detached garage. So any structure, if you put it under these 
kind of conditions, is going to have decreased indoor air 
quality.
    Mr. Burton. And you used the kind of materials that are 
used in just about any kind of construction in these?
    Mr. Shea. The highest users of these composite wood 
products, like particle board, MDF, hardwood plywoods, if you 
look at the reports, most of it goes into the remodeling 
industry. If you go into these large remodeling stores, these 
products are stacked to the ceiling. So the RV industry and the 
manufacturing housing industry only use less than 1 percent of 
these kind of products.
    Mr. Burton. The point I am trying to make is you are not 
using anything out of the ordinary in producing these products; 
you are using what is normal in construction?
    Mr. Shea. These products are used in furniture making, 
cabinetry, home building.
    Mr. Burton. Let me just say I am going to yield to my 
colleague, Mr. Issa from California, but I just want to say I 
have known the Shea family probably for 30 years, and I know 
their business, and, Mr. Chairman, I want you to know they have 
impeccable credentials as far as conducting their business in 
an honorable way in Indiana. I don't represent that area, but I 
want you to know that I don't think they would ever do anything 
intentionally to harm the health of any individual.
    With that I yield to Mr. Issa.
    Mr. Issa. I thank the gentleman.
    Mr. Bennett, how many people does your company employ 
typically?
    Mr. Bennett. Right now we employ approximately 100 people.
    Mr. Issa. About 100. And, Mr. Shea, how many would you have 
had at the peak of production for FEMA? How many people would 
you have employed?
    Mr. Shea. I would estimate about 2,000 people, sir.
    Mr. Issa. About 2,000. So we are looking at companies of 
5,000, 3,000, 100, and 2,000, and I noticed that in the 
information that I received we only have two people that have 
made complaints, both about your company, Mr. Shea, and they 
seem to be about only one thing, which is the question about 
Norboard being made in China and that being the source of a lot 
of these problems. Earlier people talked about imported Chinese 
products. Do you know where Norboard is made? And do you know 
if it could be the cause of the problem?
    Mr. Shea. Norboard is a product that is made in Deposit, 
NY. It is an American product. It is made to what they call an 
ANSI standard, which is equivalent to the HUD standard for 
particle board. But we asked this company to provide testing 
documentation on their product, and their product actually 
tested well below the standard that they build to. It is 
actually about over 30 percent below the standard. And it is 
almost what the upcoming CARB standard is for MDF that is 
upcoming for 2009. It is very close to that. So this was good 
product, good American product, and I don't know what this 
individual was referring to relative to----
    Chairman Waxman. The gentleman's time has expired. We will 
come back to you, Mr. Issa, in a minute.
    Mr. Danny Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Shea, let me try and make sure I understand your 
testimony. How many Katrina-related trailers did your company 
build and supply to FEMA during this process?
    Mr. Shea. Sir, we had two contracts. Each was for 25,000 
units, sir.
    Mr. Davis of Illinois. Did you actually build and supply or 
sell to FEMA those 25,000 units?
    Mr. Shea. Yes, we did, sir.
    Mr. Davis of Illinois. Did I understand you to suggest or 
to say that prior to the CNN new report, that you had only 
heard of possibly three expressions of concern, one which 
turned out to be a faulty connection of a sewer line?
    Mr. Shea. Sir, I am not sure as far as the CNN report. The 
timeframe that I was referring to was a report that came out of 
Bay St. Louis on an individual that was in one of our units, 
and we contacted FEMA on that individual. They told us, because 
we wanted to assist or see what we could do, they said that 
they couldn't discuss it for privacy reasons with us, but that 
they had addressed his concerns by exchanging for a different 
trailer.
    Now, I am not including that customer, sir, but----
    Mr. Davis of Illinois. OK. But you had no information that 
would suggest that formaldehyde was a problem in any of these 
units?
    Mr. Shea. Before the report that came from Bay St. Louis, 
this had not been an issue that we had tried to deal with with 
agency FEMA units. Our travel trailers had not been this kind 
of concern, so this was surprising to us, very surprising to us 
when this became an issue in the State of Mississippi at that 
time.
    Mr. Davis of Illinois. Thank you. Let me ask you, Mr. 
Liegl, how many trailers did your company supply to FEMA?
    Mr. Liegl. We supplied 5,000 to FEMA specs, not directly to 
FEMA but through a Government-approved purchaser, and so 5,000 
to the FEMA specs, but we also know that FEMA had bought 
trailers of Forest River off of dealers' lots.
    Mr. Davis of Illinois. Let me just ask, did I understand 
also that you were actually invited or there was some 
discussion that you could supply 35,000?
    Mr. Liegl. That is correct.
    Mr. Davis of Virginia. And you decided not to do the 35?
    Mr. Liegl. That is also correct.
    Mr. Davis of Virginia. Could you tell us why?
    Mr. Liegl. Well, No. 1, we couldn't. Doing what we were 
told to do by FEMA, they wanted our units to be built in the 
same standards that we build our typical RV, and so to do that 
we had to use the same plants, the same people, the same 
materials, etc. The most we could build was 5,000 in the time 
period they needed them.
    Mr. Davis of Illinois. So you were afraid that you might 
have to compromise something if you were to attempt to take on 
that contract?
    Mr. Liegl. Yes, sir.
    Mr. Davis of Illinois. The 5,000 that you actually built 
and sold, did you make any profit different than the profit 
that you probably would have made if you sold those to the 
Danny Davis Enterprises?
    Mr. Liegl. No. The margin of profit would have been about 
approximately the same what we made the year before and the 
years after.
    Mr. Davis of Illinois. Let me ask each one of you gentleman 
if you would answer directly. Last week the CDC issued a report 
about the results of its testing, and ultimately ended up 
suggesting that people living in any of these trailers 
exceeding 500 parts per billion, that they actually ought to be 
moved out and that they ought to move out immediately. Let me 
ask if you agree with that statement, and beginning with you, 
Mr. Shea.
    Mr. Shea. Sir, I don't recall that 500--my understanding on 
the CDC was they really didn't define a level of when people 
should move out; they just recommended----
    Mr. Davis of Illinois. OK. So you couldn't comment on the 
statement that I just made because you wouldn't be aware of it.
    Let me go to the next gentleman.
    Mr. Bennett. I would have to say that until a standard is 
agreed upon, that is a difficult question to answer.
    Mr. Davis of Illinois. All right. So it is difficult. Let 
me go to the next.
    Mr. Fenech. Please ask the question again, sir, because I 
don't want to----
    Mr. Davis of Illinois. Well, let me just ask this: if you 
purchased an apple and cannot eat it, do you believe that you 
ought to pay for it?
    Mr. Fenech. Great question. No, I would probably not want 
to pay for that apple.
    Mr. Davis of Illinois. Well, my point is this: that if 
there were trailers that people can't live in now, that FEMA 
has purchased, should the taxpayers be paying for those 
trailers that cannot be used for the purposes for which they 
were purchased.
    I thank you, Mr. Chairman, and yield back the balance of my 
time.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Issa.
    Mr. Issa. Thank you.
    Mr. Davis, I would be interested to know whether or not we 
would make more money on your purchase than on FEMA's purchase. 
That could be a whole separate hearing.
    Mr. Davis of Illinois. But I am selling apples.
    Mr. Issa. Well, and we don't know today, unfortunately, 
whether or not this is an example of 50,000, 125,000 apples 
being bought and we have a couple of bad apples. I have several 
questions, but I would want to make sure we understand here 
today there is no test going on in every one of these trailers 
in the field. There is no standard if there was a test. And CDC 
just told us that, in fact, they only looked at one item and 
there is no standard for what level we should move people out 
of these trailers or how much ventilation would be enough to 
reduce it, and they weren't familiar with the high levels 
inside fixed homes in these areas of the south, particularly 
Louisiana.
    So, having said that, I am going to look at you four 
business people and I am going to try and--I am not saying 
provide you relief. I think you will provide that for yourself 
in due course. But lest you be the last victims of Katrina--
let's just put it that way--today do any of you have a standard 
in front of you other than the proposed standard that would 
cause you to make your trailers different? In other words, has 
FEMA come back to you other than this adopting of 16 parts per 
billion and given you any new guidance on how to make trailers 
if, in fact, a hurricane hits today?
    [No response.]
    Mr. Issa. I will take no as the answer. I think I saw a no 
from everyone.
    Mr. Shea, in your case, speaking about trying to hit this 
level of parts per billion that is roughly equal to inhaling 
and exhaling and dramatically less than if one cat pees on the 
carpet, which would be far greater parts per billion just based 
on a kitty accident, the only thing you know of is something 
that could cause you to say no bid; is that correct? That if, 
in fact, 16 parts per billion becomes the standard, you are 
going to have to no-bid it because you can't meet that 
standard?
    Mr. Shea. No, sir, because even if you tested something, 
and where we produce in Indiana, the time you moved it to 
Louisiana, totally different atmospherics, much more humidity, 
much more heat on a constant basis, there is no way. And that 
doesn't even include how residents differ and their use.
    Mr. Issa. You know, I am an electronics manufacturer, so my 
background is one in which we have standards for absolutely 
everything, and I was the chairperson of the Standard and Trade 
Association, the Consumer Electronics Association, before I 
came to Congress. Now, you all four are, I believe, members of 
the trade association for travel trailers; is that correct?
    Mr. Shea. Yes.
    Mr. Bennett. Correct, sir.
    Mr. Fenech. Yes.
    Mr. Liegl. Yes.
    Mr. Issa. OK. And is your association prepared to 
participate in standards setting if, in fact, the Government is 
willing to set standards?
    Mr. Shea. Yes.
    Mr. Bennett. Absolutely.
    Mr. Fenech. Yes.
    Mr. Liegl. Yes.
    Mr. Issa. OK. Do you know if your association has reached 
out to try to have that engagement? Any one of you that wants 
to speak?
    Mr. Shea. I think that is very important to the industry, 
and they have said so. They are very interested in being able 
to have the kind of standard they can conform to. I am sure 
they will be leading the parade as attaining that standard.
    Mr. Issa. So, again, in the spirit of lest Katrina have one 
more set of victims, all of you are saying today that you do 
not have new standards on which to make trailers differently 
than you made them before and after Katrina, the only 
discussion of a new standard of 16 parts per billion is not 
achievable, and your association stands ready to work with, on 
a uniform basis, meeting these standards both for FEMA and for, 
as a matter of fact, the consumer public. Is that all correct?
    Mr. Shea. Absolutely.
    Mr. Bennett. Yes.
    Mr. Fenech. Yes.
    Mr. Liegl. Yes.
    Mr. Issa. So we have hauled you all in here to talk about a 
standard that didn't exist, that you couldn't meet because it 
didn't exist, it doesn't exist today, and we are asking you to 
defend yourselves because you might have made a profit making 
trailers that in many cases were identical or actually were 
off-the-shelf trailers, because many of what FEMA bought were 
off-the-shelf trailers; is that correct?
    Mr. Shea. Correct.
    Mr. Bennett. Yes.
    Mr. Fenech. Yes.
    Mr. Liegl. Yes.
    Mr. Issa. OK. And I yield the remainder of my time to Mr. 
Burton.
    Mr. Burton. I just want to ask, I was wondering if we could 
ask the EPA to test closed houses in this area down there to 
see what the parts per billion are in those houses compared to 
these motor homes that were there since Katrina. I think that 
would be a very interesting thing, and I would like to ask you, 
Mr. Chairman, if we could request that kind of a study.
    Chairman Waxman. Well, I will certainly take it under 
submission, but certainly you are free to ask for any 
information you wish.
    Mr. Burton. I know, but you being chairman I think it would 
carry--I will co-request it with you, Mr. Chairman.
    Chairman Waxman. The gentleman's time has expired.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Shea, my question really goes to the duty of the 
manufacturer. We have spoken about FEMA here. You don't have to 
worry about FEMA. I am Chair of the subcommittee with 
jurisdiction over FEMA. This committee has, in addition, had 
FEMA before us way before we ever got to you over the past 
couple of years. My questions really go to the duty to disclose 
in a free democratic free market society when a business wants 
to avoid liability, when a business wants to remain in 
business, when a business wants to maintain its reputation with 
the Federal Government and with customers, generally. I am 
perplexed by your approach to the 35 unoccupied trailers.
    I have a letter here from March 2006, a letter from Gulf 
Stream where Gulf Stream was testing 35 unoccupied trailers. 
Leave aside the controversy about now standard, what standard, 
these tests showed levels in some of these trailers well over 
2,000 to 4,000 parts per billion, and I don't think there is 
much controversy about that level. By anyone's standards that 
is a dangerous standard, and I don't think that is subject to 
dispute or has been subject to dispute even here.
    Now, Mr. Shea, you began testing in March, and FEMA, of 
course, was still in the process of activating its purchase of 
trailers. Indeed, after March 2006 when you were testing FEMA 
actually continued to activate trailers, thousands, which, of 
course, ended up in the Gulf with the results that are under 
scrutiny here today.
    Let me ask you: did Gulf Stream provide FEMA with the 
vehicle identification numbers of the trailers that it had 
tested that had high levels of formaldehyde so that at the very 
least FEMA could ensure that those trailers were not 
distributed on the Gulf Coast?
    Mr. Shea. Well, there is various e-mails. I think if you 
look in the record you will see discussions between FEMA and e-
mails between FEMA and Gulf Stream.
    Ms. Norton. Well, we have your letter, and your letter 
makes no reference to any results from the unoccupied trailers. 
Is it your testimony that you, in fact, told FEMA, e-mailed 
FEMA, wrote FEMA about the results in the 35 unoccupied 
trailers? Did you reveal these 2,000 to 4,000 parts per billion 
in the unoccupied trailers? I am simply trying to get whether 
you did or not.
    Mr. Shea. Well, we----
    Ms. Norton. Did you disclose this information or not?
    Mr. Shea. We didn't conclude that it was relevant, ma'am. 
We thought that it was irrelevant information.
    Ms. Norton. In what sense?
    Mr. Shea. Well, ma'am, we felt it was irrelevant 
information because, first of all, we provided information to 
FEMA in that letter relative to what our experience was with 
ventilation, what our experience was with looking at 
ventilation options for sensitive individuals. That----
    Ms. Norton. That is my point. You provided, indeed, in this 
letter you provided only the information that, of course, would 
reinforce the continuing purchase and activation of these 
trailers. I understand what you provided. I am asking you why 
you thought it was irrelevant----
    Mr. Shea. Yes, I would love to respond to that.
    Ms. Norton [continuing]. To disclose any information about 
the formaldehyde levels in the unoccupied trailers which you, 
yourself, were at that moment testing. Why was that irrelevant?
    Mr. Shea. First of all, FEMA had information on unoccupied 
units, ma'am. They had done OSHA testing and----
    Ms. Norton. I am talking about your tests. You just said 
irrelevant.
    Mr. Shea. Yes, we----
    Ms. Norton. And I want to know why it is irrelevant.
    Mr. Shea. It is irrelevant, ma'am, because FEMA knew about 
closed-up, tightened-up, heated-up units, what they would have 
been testing at, because they had OSHA-certified persons that 
went out and did testing well before this.
    Ms. Norton. This was unoccupied trailers about to be 
distributed to actual human beings on the Gulf Coast. If you 
had to do it over again, would you disclose the information on 
the 35 unoccupied trailers to FEMA?
    Mr. Shea. Anything that would have been helpful to public 
health in any kind of retrospect on this, we would have loved 
to have been able to shed more light on. We support public 
health. But this is looking at it in a retrospective, and our 
perspective at the time was----
    Ms. Norton. Well, you haven't been able to tell us why it 
was irrelevant. Indeed, you testified that in retrospect, if I 
could conclude, in retrospect this could have been helpful to 
maintain health. And, you know, my main concern here is not so 
much with what appears to be a cover-up, at least of this 
information, but with whether or not the companies have learned 
anything from this experience. I will try to conclude that your 
first answer about irrelevant is not your final answer, and 
that if you had to do it over again perhaps it should have been 
disclosed. That is giving you the best veneer I can on your 
answer.
    I yield back the balance of my time.
    Chairman Waxman. The gentlelady's time has expired.
    Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman. I have a couple of 
points that I want to make, but I want to followup there.
    Mr. Shea, it was not a scientific test; it was a snapshot, 
and it was a snapshot of sealed vehicles which could test at 
any different range. In retrospect, perhaps it would have been 
helpful for CDC to know, but, in fact, they probably wouldn't 
have had it be relevant, either, other than potentially to do 
more testing, because the test wasn't accurate. Wasn't that 
what you were trying to say?
    Mr. Shea. Yes. And, if you will remember, the EPA did 
testing, certified testing, several months after we would have 
done these screenings, in September, and they showed levels 
above these levels, equal to these levels that were shown by 
the screenings, which, of course, picked up all kinds of other 
chemical constituents. But it wasn't treated by Government as 
being relevant. They didn't say because we have these closed-
up, heated-up, sealed-up units at these levels. They didn't 
come back and say, Well, everybody needs to be evacuated from 
units.
    Mr. Souder. Because you have certainly said air them out.
    Mr. Shea. They said air them out, and the ATSDR did a 
report in February 2007. It wasn't until occupied unit testing 
was done 18 months after this approximately letter that Ms. 
Norton is referring to that there was a move to what the CDC 
said, quickly relocate residents. It wasn't after this EPA 
testing that was done well before that showed results in these 
sealed-up units.
    Mr. Souder. I wanted to make a comment, and if any of you 
want to add to this, there is kind of a misunderstanding in 
applying the type of industry that has developed predominantly 
in Elkhart County from other industry associations and why the 
industry hasn't been more proactive. It is basically a startup 
industry that was a collection of small companies.
    Mr. Liegl, when you started what size was your company?
    Mr. Liegl. Well, when we began it was in 1996 and I began 
with 20, 30 people.
    Mr. Souder. And Forest River is now one of the biggest. How 
many acquisitions would you say you have made in the last 24 
months?
    Mr. Liegl. Acquisitions?
    Mr. Souder. Yes. In other words, picking up other 
facilities.
    Mr. Liegl. We primarily grew from being organically grown 
and not through acquisition.
    Mr. Souder. Mr. Fenech, Keystone came out of other 
companies in the area and was one of the most dynamic young 
companies. Four now has bought a whole number of companies in 
the District, including yours. Mr. Bennett's historically has 
been more typical, fairly small company that, as Government 
pressure comes in, and as we have more accountability, one of 
the byproducts of this is it is getting harder and harder for 
somebody to start a company of 90 employees or harder and 
harder to do what Keystone did without the capital, meeting all 
the different standards, and there are consequences to our 
actions. But in the ability of the association to fund their 
own R&D, what we have seen is a consolidation of this industry 
into larger companies, because, as you have to do this, you 
respond differently.
    One of the great entrepreneurial counties--Elkhart County 
is the highest percent manufacturing in America, one of the 
last percent places.
    One other thing that has come up, I have seen it in media 
reports, are shuttered buildings. I know another company which 
is not this, but Utilimaster, when I first visited them, 
sometimes operating in two buildings and sometimes they are 
operating in nineteen buildings, because buildings get 
shuttered because things are cyclical. That would be the wide 
range.
    Mr. Shea is a little different, because your company 
historically has dealt more with FEMA. Has it always been 
significant, as opposed to Mr. Liegl is about 5 percent of 
yours? Is that what the trailers----
    Mr. Liegl. Correct.
    Mr. Souder. Mr. Shea, what percent of FEMA would be a 
standard and what is your range that the green facilities tend 
to be extra cyclical? Could you kind of give an idea of how you 
go up and down because of the nature of your business is 
somewhat different than some of the others?
    Mr. Shea. Well, some years we provided 500 units to FEMA, 
some years we provided 7,000 units to FEMA for hurricane 
relief. This was the largest number we ever produced. 
Obviously, since that time the industry has gone downward in 
terms of its overall production. We have had to adjust to that. 
This is going to be a very difficult year for the industry. I 
have heard five or six companies already go out of business, 
long-term companies, and some of the industry segments are down 
56 percent. So we do have to make that kind of adjustment, but 
our utmost thing is to try to preserve manufacturing jobs and 
do everything we can to do that.
    Mr. Souder. I have just a quick followup to that. The 2,000 
figure was used. What would be the range of your employment?
    Mr. Shea. It could range between 1,000 and 2,000.
    Mr. Souder. Thank you.
    Chairman Waxman. Mr. Jordan.
    Mr. Jordan. I thank the chairman.
    I want to thank the panel, too, for coming. I represent the 
Fourth District of Ohio. We have Airstream, part of Four 
Industries, as well, in our District; Norcold, which I assume 
is a supplier for some of you guys. We do appreciate your being 
here and your industry.
    I thought Mr. Issa did a nice summary when we talked about 
the standards. You talk about there is no test, there is no 
standard. In fact, in the previous panel Dr. McGeehin even said 
that, I think, if I got his quote right, the CDC is not a 
standards-setting agency. So it is a tough situation that you 
guys are having to deal with here.
    I wanted to go to, I think, Mr. Liegl's reference. I didn't 
catch all your opening statements, but Mr. Liegl in his opening 
statement talked about his assistance to FEMA in past 
disasters. I know Mr. Shea, as well, with Gulf Stream has done 
that.
    Mr. Bennett and Mr. Fenech, have you guys also assisted 
FEMA in past hurricanes or past disasters?
    Mr. Fenech. We have never had a contract with FEMA, no. 
There have been some products that we have supplied, but it has 
been through the dealers.
    Mr. Jordan. Mr. Bennett.
    Mr. Bennett. We have never had a contract directly with 
FEMA.
    Mr. Jordan. OK. So just Gulf Stream and Forest River. In 
your past dealings with FEMA, has there ever been problems? 
Have you had any complaints? Have things gone fine?
    Mr. Fenech. Could I go back? We did not have a direct 
contract with FEMA.
    Mr. Jordan. You sold off your lots?
    Mr. Fenech. No. We sold to American Catastrophe, which was 
an approved supplier.
    Mr. Jordan. OK.
    Mr. Fenech. So it wasn't a direct deal with FEMA.
    Mr. Jordan. OK. But in your past dealings where your units 
have assisted FEMA in dealing with disaster relief, have there 
been any problems with those units?
    Mr. Fenech. In the past, absolutely none.
    Mr. Jordan. Mr. Shea.
    Mr. Shea. We have had a very excellent relationship with 
FEMA over the years. We have had a laudatory letters relative 
to our performance, and we have worked closely with them.
    Mr. Jordan. And the units that went out with Katrina and 
Hurricane Rita, the units that were sold there, is it accurate 
to say they were the exact same units that you would send to 
your dealers and your dealers would sell to any citizen or any 
family who came to purchase those?
    Mr. Fenech. Yes, sir.
    Mr. Jordan. Mr. Liegl.
    Mr. Liegl. Definitely.
    Mr. Jordan. Mr. Shea, same units?
    Mr. Shea. We were the only manufacturer that was approved 
for rail transport, which was important to FEMA, and I think 
they shipped about 25,000 of our units by rail, so our units do 
have differences beyond what would be normal for our regular 
production. There are some differences, but all the products 
use composite wood products like particle board and MDF and 
hardwood plywood. I mean, that is very much the same for all of 
them.
    Mr. Jordan. And then Mr. Bennett and Mr. Fenech, same units 
that were part of Katrina, same units you would sell to any 
other customer?
    Mr. Fenech. Absolutely.
    Mr. Jordan. OK. Mr. Chairman, I yield back the balance of 
my time.
    Chairman Waxman. Thank you very much.
    That concludes the questioning by the members of the 
committee, and I do want to recognize Mr. Donnelly at this 
time.
    Mr. Donnelly. I want to thank the chairman again for having 
the grace to let me be present at this hearing. And I want to 
welcome all of the gentlemen here for participating. There are 
headquarters located in our District. You have facilities 
located in our District. I think the other story that is here 
is the story of the number of families of the Gulf Coast region 
who were able to receive shelter from your products when they 
had nowhere else to put their head at night and who, because of 
the workers of your comps, were able to have their family have 
a place to stay and be able to shower and to eat and have 
somewhere that they could put their family unit back together.
    And that the workers of your companies, the other untold 
story is the overtime work that was put in on a constant basis, 
the weekend work that was done because of the commitment of 
your workers and your companies to the people who live, their 
fellow Americans, down in the Gulf region.
    I travel the highways of our District, as you know, and day 
after day almost every 2 or 3 minutes you could see another 
unit heading down to the Gulf region for another family.
    So the one question I have is for you, Mr. Shea, and that 
is that the Government and scientific agencies have not seemed 
to be able to successfully come to a consensus as to a 
formaldehyde level for your products. In that absence, are you 
voluntarily implementing any standards, and what would they be?
    Mr. Shea. Yes, Congressman. In spring of 2007 we started 
implementing products that were equivalent to the upcoming CARB 
standards for product emissions that go into effect in 2009, 
and beyond that we have moved now to actually 2011 compliant 
products. So what we are producing now is 2\1/2\ years in front 
of the marketplace, as far as I know. That is where we like to 
be. We like to be ahead of the curve. We have been ahead of the 
curve in terms of using LFU products starting in the 1990's. 
And we also, to my knowledge, are the only manufacturer who has 
a third party organization that ensures our material 
acquisition, our supply processes, and does verification 
testing on products that we receive from vendors.
    Mr. Donnelly. Thank you very much.
    I have no other questions, Mr. Chairman.
    Chairman Waxman. Thank you very much, Mr. Donnelly.
    Some Members wish a second round, and I see Mr. Welch has 
just arrived and he hasn't done his first round, but let me 
recognize myself and then we will get to Mr. Welch down the 
road.
    Last week CDC issued this report and we heard from CDC this 
morning in their testimony, and they said to us that levels of 
formaldehyde were elevated in these trailers, and some exceeded 
500 parts per billion, which is the level that OSHA requires 
mandatory medical monitoring. It is that high so that they 
require medical monitoring. As a result of its testing, CDC 
recommended everyone currently living in these trailers be 
evacuated immediately, not just some residents, but all of 
them. CDC said that Government should prioritize its evacuation 
first to take out the elderly and children, those who are most 
sensitive, but then eventually get everybody out.
    The witnesses on this panel that is before us right now 
representing the companies that sold these trailers, I would 
like to ask each of you, Do you agree with this Federal 
Government decision to evacuate these residents from your 
trailers if they exceed this 500 parts per billion? Mr. Shea, 
do you agree with that statement from CDC and recommendation?
    Mr. Shea. CDC recommended that these persons be quickly 
relocated despite the levels. The levels were as low as three 
parts per billion, sir, and they ranged upwards----
    Chairman Waxman. No, that is not my question. My question 
is we are being told that if people are living in trailers that 
exceed 500 parts per billion, that they be put into some other 
trailer, that they be relocated. Do you disagree with that?
    Mr. Shea. I think that there should be all consideration 
for the safety of the persons. There are some statistical 
outlookers. There are very few of the units that I know were at 
that level. They average----
    Chairman Waxman. But if they are at that level, do you 
agree with that recommendation? Yes or no?
    Mr. Shea. Above that level, with the concerns that are 
being registered by the CDC, I would agree for public health.
    Chairman Waxman. OK. How about you, Mr. Bennett?
    Mr. Bennett. I would agree.
    Chairman Waxman. Mr. Fenech.
    Mr. Fenech. I think that there are really some unusual 
circumstances in Louisiana, and absolutely. I mean, if it is 
unsafe they should be moved out.
    Chairman Waxman. Mr. Liegl.
    Mr. Liegl. Yes, sir.
    Chairman Waxman. OK. Now, since you agree with this 
statement, let me ask you this: why should the Federal 
Government have to pay you for these trailers? The American 
taxpayers spent $2 billion in trailers that can't be used. 
Shouldn't we get that money back if those trailers exceed those 
very high levels?
    I don't see any of you jumping in to say yes.
    Mr. Shea. I would answer that question, sir. CDC testing 
totally depends on use. Anybody that would have smoked a 
cigarette or otherwise used the unit, it wasn't a protocol that 
was universal. They were totally dependent on what people did, 
whether they cooked fish, whether they smoked a cigarette, 
whether they did other things that raised these levels higher.
    We are in favor not just of a standard, but we need also a 
protocol of testing to follow so that we know what we are 
comparing it to.
    Chairman Waxman. Let me interrupt you. Two years ago you 
tested trailers and found that 40 percent of them exceeded that 
level. Mr. Fenech, CDC found that a trailer from your company, 
Keystone RV, had formaldehyde exposures of 480 parts per 
billion. Do you think that is safe?
    Mr. Fenech. Based on the information that we are hearing 
today, you would say that no, that doesn't sound like it is a 
safe level.
    Chairman Waxman. OK.
    Mr. Fenech. Please let me complete my thought, if I might. 
But the implication then is that it is all the result of the 
way the trailer was built, and that I don't agree with, to 
answer your question about the buy-back.
    Chairman Waxman. But you don't think it is safe.
    Mr. Fenech. I am not a scientist.
    Chairman Waxman. Let me ask Mr. Bennett the question. CDC 
found that a trailer from your company, Pilgrim International, 
had 520 parts per billion. Do you think that is safe for people 
to live in?
    Mr. Bennett. I would have to state that this is long after 
the fact and at the time we built these units we had no 
standard to go by. We were building them the same way we build 
trailers, thousands of trailers. We had no reason to believe 
that these trailers were----
    Chairman Waxman. But you don't think it is safe now.
    Mr. Shea, you are the chairman of Gulf Stream company. You 
provided the most trailers to FEMA. Your company was paid over 
a half billion dollars. CDC found that one of your trailers had 
formaldehyde levels 590, the highest level of any of the 
trailers that it examined.
    The point that I am getting to is I don't think that a 
manufacturer of any product should say, well, if there is no 
standard I don't have to meet it. I think you have an 
obligation to try to find out if your product is going to harm 
people. I think that is just the responsibility of any 
manufacturer that sells a product, no matter what it is, 
whether it is a toy or a trailer. When we hear from CDC that 
everyone living in these trailers at that level should be 
evacuated as soon as possible, nobody should live in those 
trailers with formaldehyde that high, it sounds like the 
companies who sold these trailers are not willing to say that 
they have some responsibility because there was no standard. I 
just don't accept that argument.
    My time has expired. Who wishes to be recognized? Mr. 
Bilbray.
    Mr. Bilbray. Yes, Mr. Chairman.
    Gentlemen, this whole issue sort of is interesting how it 
has come around. As the chairman knows, I served on the Air 
Resources Board in California, and we had major concerns about 
indoor pollution exposures. In fact, as far as I know right now 
in the 1990's we were looking at a different exposure, and that 
was the exposure caused by formaldehyde emissions from new 
purchased vehicles, new manufactured vehicles. I question, Does 
anybody know what the formaldehyde exposure is on a new 
automobile in the United States left in the noonday sun for a 
few hours?
    [No response.]
    Mr. Bilbray. And is there a Federal standard of maximum 
exposure for new automobiles?
    [No response.]
    Mr. Bilbray. I would say, as far as I know, no, there 
isn't. And it is a concern and has been a concern of the Air 
Resources Board since the late 1980's. But do we hold 
automobile manufacturers responsible for that exposure and do 
we now open up the issue that automobile manufacturers should 
be held accountable for any exposure over a certain limit to 
new car purchasers, because I haven't bought a new car in a 
long time and, frankly, that new car smell is something that 
people talk about. But at the Air Resources Board we were 
addressing it.
    My question is this: the formaldehyde emissions in these 
trailers--and in my family I was in Mississippi. I had a family 
home damaged in Mississippi. I saw the trailers coming in. The 
manufacturing products that were put in these trailers, are 
they products that are available in the open market at any Home 
Depot, at any lumber yard, or are these unique particle board 
and materials that are emitting formaldehyde? Gentlemen?
    Mr. Fenech. I would be happy to answer that. It is off-the-
shelf, standard stuff that is used every day in house building 
for all intents and purposes. Maybe we might get a different 
thickness of that material versus the standard half-inch versus 
we might get three-eighths, but it is off-the-shelf material.
    Mr. Bilbray. Anyone knows when the testing was done, was 
there any mitigation done to new construction exposed to the 
southern sun basically caused more aggravated emissions coming 
out of these particle board and other products, just like the 
new automobile left in the sun? In these records, what kind of 
application? How old were the units? And what was the 
parameters with which the tests were made that came up with 
these high numbers? Do you guys have any idea of what kind of 
parameters the Sierra Club used in doing these tests?
    Chairman Waxman. You said the Sierra Club.
    Mr. Bilbray. Well, the data I had was that the Sierra Club 
felt there were evaluations and concerns about the exposure, 
Mr. Chairman. Am I wrong on that? The Sierra Club didn't have--
--
    Chairman Waxman. I am misinformed, and I am sorry to have 
jumped in. I guess the Sierra Club did some very preliminary, 
early studies.
    Mr. Bilbray. And raised the concerns?
    Chairman Waxman. Yes. The gentleman's question is based on 
an accurate statement.
    Mr. Bilbray. There were tests done by the Sierra Club and 
raised these concerns. And the testing done, the big question 
that is there is do we now go to all construction material and 
start addressing the issue of formaldehyde in all construction 
material, and is that the way we could reduce this exposure, 
and basically say particle board may be outlawed in the United 
States or may not be used in construction where you have the 
potential for indoor pollution, which ARB in California has 
been talking about for over a decade.
    Go ahead, sir.
    Mr. Shea. Yes, CARB is implementing, as I mentioned 
earlier, in 2009 new product standards which they say are the 
most stringent in the world. And yes, there is going to be 
standards certainly for our industry in using these common wood 
products. They need to be applied to home building, remodeling, 
apartments, furniture. Everyone needs to be on the same, 
because it is more difficult to ensure what products you are 
getting when there is all kinds of different products out 
there, so it would be helpful to have a national standard for 
these kinds of products.
    Mr. Bilbray. OK. And remember, too, that the use of this 
particle board has actually been encouraged due to recycling of 
waste products from lumber activity so that waste products that 
would normally have been burned or thrown away are now recycled 
and put into this stream to be able to use it as construction 
material rather than using virgin material and going down and 
cutting down more trees. Is that fair to say that this is how 
we ended up with so much particle board?
    Mr. Shea. Yes, sir. There is a product that came into play 
well after our products were created. It is called 
environmentally preferable product. It has special standards, 
and they are low formaldehyde, but to be an environmentally 
preferable product it has to be a sustainable product and taken 
from the kinds of products you are talking about. In a lot of 
ways it is a green product.
    Mr. Bilbray. Mr. Chairman, I would just ask that when we 
look for a minimum standard here for exposure in a travel 
trailer which really does not apply to the mobile home because 
the exposure rate was assumed to be different, and I think 
there is a legitimate argument there that maybe we need to look 
at our own regs. But again, just as we did with medical 
implants and stuff, there has really got to be a line drawn 
here of what is the exposure or what is the responsibility of 
one person as opposed to another and where the source of the 
formaldehyde came from, and was it reasonable for somebody to 
feel that generally available construction material that is 
used universally across the construction industries in many 
different fields was somehow not appropriate at this location.
    I think that is a debate, but I think there is a degree of 
back seat driving here, hindsight 20/20 that it is not a 
trailer that was newly constructed that was in Minnesota during 
the winter where there might not have been any exposure at all. 
It happened to be a brand new trailer that was produced and 
then put into the sun in Mississippi and Louisiana in the 
middle of August, which really changes the whole dynamics 
there. That real-life application is something that we know now 
post-script, but to perceive that was going to be a problem 
somewhere in the future I think is really second-guessing 
people to an extreme, especially with the fact that I still 
would say why are new automobiles exempt from the environmental 
air pollution exemption except for the fact that they are in 
the same clause here.
    I say publicly if you own a new car don't jump into it 
after it has been sitting in the sun. Roll the windows down and 
let it air out, unless you want to get a good dose of 
formaldehyde. That is something that I think the consumers need 
to talk about back and forth. But we ought to be talking about 
that before the incident rather than coming back now and 
pointing fingers after the incident.
    I yield back, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Bilbray.
    Mr. Welch.
    Mr. Welch. I thank you, Mr. Chairman.
    Mr. Shea, I want to ask you a little bit about a CNN story. 
In April 2006 I understand that Gulf Stream became aware that 
CNN was going to be doing as story on formaldehyde in FEMA 
trailers. You are familiar with that?
    Mr. Shea. Yes, I recollect that, sir.
    Mr. Welch. Well, it was a big deal. This was going to go to 
the heart of the quality of the trailers and whether people in 
your trailers were getting sick, right?
    Mr. Shea. Sir, I expressed earlier--I don't know if you 
were here--the experiences that we had with several 
complainants.
    Mr. Welch. Well, let me proceed here. I am saying the 
obvious here. As a company, you obviously want to defend the 
product that you put out, right? This is going to be a story 
raising questions about it, you are going to take that story 
seriously and prepare for it, right?
    Mr. Shea. As soon as the initial story came out in Bay St. 
Louis in mid-March, we were very much concerned with the story 
and the issue. Certainly.
    Mr. Welch. So Gulf Stream, your company, sent a statement 
to CNN in April 2006 about formaldehyde, where it said, and we 
will put this up on the board if we can, ``We are not aware of 
any complaints of illness from our many customers of Cavalier 
travel trailers over the years, including travel trailers 
provided under our contracts with FEMA.'' Did your company make 
that statement?
    Mr. Shea. And we are speaking retrospectively prior to the 
March issue when it started in March. We were talking about our 
experience with Florida hurricanes, and we had been building 
these since 1992, if you recall.
    Mr. Welch. Did your company make that statement?
    Mr. Shea. We did make that statement, yes, sir.
    Mr. Welch. And did you make it in April 2006?
    Mr. Shea. It was made in April 2006.
    Mr. Welch. All right. So is it fair to conclude that any 
listener would hear your statement as asserting that your 
company was aware of no complaints prior to the issuance of 
that statement?
    Mr. Shea. Our intent with the statement was to describe our 
history of experience with this prior to this issue coming 
about from Bay St. Louis in mid-March. That was our intent, 
sir.
    Mr. Welch. Let's use English here. You made a statement in 
April, and as of that date I assume that you vouch for the 
integrity of the statement.
    Mr. Shea. Sir, there were allegations. We are not even 
familiar with the medical aspects of any of these complaints.
    Mr. Welch. So what you meant to say is that you are unaware 
of any substantiated medical complaints?
    Mr. Shea. We were aware of allegations; we were unaware of 
substantiated medical complaints, and we were speaking prior to 
the----
    Mr. Welch. So why, if----
    Mr. Shea. Previous experience in previous years, sir.
    Mr. Welch. So why didn't you say you heard of allegations 
but not ``substantiated medical complaints?''
    Mr. Shea. Sir, we were trying to be as expressive of our 
history of dealing with this, and we thought that was what was 
important, but we were addressing the few complaints that we 
received, sir, and the record shows that in that period we 
had----
    Mr. Welch. Let me tell you what the record does show. On 
March 20 of 2006 on your Gulf Stream interactive Web site, you 
received a statement, you, Gulf Stream, and this is before you 
issued the no complaint statement, and I think we can get that 
up here, as well ``There is an odor in my trailer that will not 
go away. It burns my eyes and I am getting headaches every day. 
I have tried many things, but nothing seems to work. Please, 
please help me.''
    Now, were you able to say that you had received no 
complaints because this did not come with a medical 
certificate?
    Mr. Shea. Every complaint that we received, sir, we 
investigated, we responded to, we asked persons if we could 
assist them.
    Mr. Welch. That is not the question I am asking. I mean, I 
asked you how you square that statement, your statement to CNN, 
``We are not aware of any complaints of illness,'' you made in 
April 2006 with a statement from a customer on a Web site that 
was a complaint.
    Mr. Shea. Sir, we received three complaints during that 
period. We addressed all of them. We were proactive on them. We 
asked FEMA to assist on any complaints they had. And we were--
--
    Mr. Welch. I don't want to be difficult, but----
    Mr. Shea. I don't want to be difficult, either, sir.
    Mr. Welch. Had you received any complaints before April 
2006 when you issued your statement to CNN that you had no 
complaints?
    Mr. Shea. The complaints related to this matter that we 
received were two for that period.
    Mr. Welch. So the answer to my question is yes, you had 
received complaints prior to April, but you told CNN you had no 
complaints, correct?
    Mr. Shea. We were speaking of our history with FEMA as a 
program, sir.
    Mr. Welch. And that is a convenient way of saying that is 
the justification for saying something that was untrue.
    Mr. Shea. Sir, I believe we have been very truthful in 
everything that we have done and what we have presented here 
today.
    Mr. Welch. I will yield the balance of my time.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Liegl, I think I will switch to you and give Mr. Shea a 
bit of a break here. The chairman earlier was talking in terms 
of shouldn't people get their money back, shouldn't the 
Government not pay, and so on. And I would like to set the 
record straight, as having been a manufacturer, myself. All of 
your companies--I will ask you to answer for anyone, unless 
they want to pipe in, in particular--all of your companies are 
subject to various State lemon laws, right?
    Mr. Liegl. Yes, sir.
    Mr. Issa. Plus, you all have networks of dealer 
distributors, right?
    Mr. Liegl. Yes. Correct.
    Mr. Issa. Now, if a customer is dissatisfied, and 
particularly if the customer either litigates or comes in with 
multiple valid complaints, if the distributor sees a problem 
they are going to call you up and say take this lemon back, 
repair or replace it, right?
    Mr. Liegl. I'd say that is correct.
    Mr. Issa. OK. So the industry you are in, including the 
trade association norms for this industry, say if you make a 
product which is substantially defective, such as while it was 
on the trip to its destination somebody let it get soaked in 
water, or anything else that causes it to be materially 
different than the 10,000 other ones produced the same year, 
you take them back, you repair or replace them, you make them 
right; is that correct?
    Mr. Liegl. That is correct.
    Mr. Issa. And that is true of most of the sort of Elkhart 
group, if you will, of travel trailer makers. So when FEMA 
started having these problems, was there any doubt in any of 
your mind that if any of your trailers had material or 
workmanship failures in your design or in the materials you 
chose or in the work that your people did, that you would make 
it right by repairing or replacing it? Was there any doubt in 
your mind that you would do that?
    Mr. Liegl. I believe we would have.
    Mr. Issa. OK. Has FEMA ever come to you and said, Take back 
this trailer, it is defective in work that you did?
    Mr. Liegl. No, sir. Never.
    Mr. Issa. OK. Now, you have evaluated trailers that had a 
myriad of problems that have been used and you were part of 
that evaluation of why does it have this level or why did mold 
produce, and so on, and so you are familiar with trailers that 
had a year or two down the road and have problems, right?
    Mr. Liegl. Correct.
    Mr. Issa. OK. So you have cooperated with FEMA, the 
Government agency that you sold to. You would take back the 
products if they were defective in material or workmanship, 
and, in fact, you have not been asked to nor have you been 
given a failure or any part of your spec or your material 
workmanship; is that correct?
    Mr. Liegl. If it was our problem, we definitely would stand 
behind it.
    Mr. Issa. OK. And I would like just a nod. All the rest of 
you agree?
    [No audible response.]
    Mr. Issa. So the norm in the industry, particularly when 
you are making something that feeds into State lemon laws and 
so on, as these things do, the norm is you make it right, you 
use your distributor network, your dealer networks to make it 
right if it is in the field without bringing it back. And, in 
fact, even though we are having this hearing today and we are 
talking about people suffering and so on--which I am not 
disputing that people have had health problems while living in 
these trailers, but in no way, shape, or form has the 
Government come to you and said you did this wrong as of today? 
No allegations against any of the four of you other than what 
you heard from the dias here today?
    Mr. Shea. Correct.
    Mr. Bennett. That is correct.
    Mr. Fenech. Correct.
    Mr. Liegl. Right.
    Mr. Shea. OK. I think, Mr. Chairman, that makes the case 
that these are not the wrongdoers. Government may very well 
have failed the people of Louisiana and Mississippi. They may 
be continuing to fail them by not setting standards for the 
travel trailers or living accommodations, by not having ongoing 
testing. That may all be very true. Certainly, as a 
Californian, you and I share the leading edge of air quality 
that California is known for. But none of that is here today.
    So I am not defending anyone, but I would like to thank all 
four of you for coming here today, for testifying honestly, 
and, in fact, for the fact that nothing has been said here that 
causes you to have done anything wrong. You may have tested and 
come up with high or low or different levels, but, again, as we 
heard from the CDC, these are all things we would like to do 
but Government, as of today, hasn't done it.
    So, Mr. Chairman, since we are the Government Oversight and 
Reform committee, now that we have, I think, completed most of 
our oversight, I would hope that we would join on a bipartisan 
basis to do the reform of making sure that the Government 
agencies responsible for air quality, whether it is in 
manufactured items or in the air, itself, do their job and set 
appropriate standards and testing procedures so that we don't 
again haul in four CEOs of companies who, as of today, have not 
had one product returned as defective or somehow inappropriate 
to the design, and rather make sure that we have standards for 
the next one so that these four will competitively bid on a 
product that would be improved once we decide what improved 
means.
    So, Mr. Chairman, I thank you for holding this hearing, but 
I do very strongly hope that on a bipartisan basis we will do 
that second leg and ensure that we set standards that people 
can manufacture to.
    With that I thank you and yield back.
    Chairman Waxman. Thank you, Mr. Issa.
    I want to ask Mr. Burton and Mr. Souder if you wish to have 
a second round?
    Mr. Burton. Yes, I want one.
    Chairman Waxman. OK. Mr. Burton.
    Mr. Burton. I want to read to you what it says regarding 
the parts per billion and what HUD sets as a target. It says, 
``HUD set a target of 400 parts per billion for indoor ambient 
air in manufactured homes. HUD's indoor ambient air target 
guideline of 400 parts per billion is based on component 
standards for plywood and particle board.
    In the unoccupied units testing revealed baseline 
formaldehyde levels were at 1,040 parts per billion, but fell 
to an average of 390 when the air conditioner was turned on. 
The averages fell even lower to 90 parts per billion when the 
windows were opened. The baseline average is probably 
attributable to the fact that unoccupied trailers were sealed 
up in storage, they were in the sun, and had little or no air 
conditioning or exiting. In all occupied units, the average 
level was 77 parts per billion and 81 parts per billion for 
travel trailers specifically.''
    I kind of am disappointed that we have you four here 
beating up on you, because I don't think you have done anything 
wrong. You have used standard materials off the shelf that is 
used in any kind of home construction or remodeling. I have had 
it done in my house. The location of the mobile homes in 
question was in an area that was extremely hot. They were 
sealed up and nobody was in them, and so when somebody went in 
them obviously the parts per billion would be much, much higher 
and it would take a while for them to cool off. And if they 
didn't open the windows, it would probably take even longer for 
them to get all the parts per billion down to where they should 
be.
    Then you have to take into consideration how the occupants 
lived, if they had a dog in the house, if they bought 
additional furniture or different kinds of other things that 
might have formaldehyde in them. Did they smoke? How did they 
cook? Did they like higher temperatures in their house or lower 
temperatures in their house? There is all kinds of 
imponderables that you have to take into consideration when you 
are talking about the parts per billion.
    You know, in all of our houses we have carpet, we have 
furniture, we have construction material that you use in your 
products. And I am going to go home and try to find out how 
much I have in my house, and when I exercise downstairs where I 
have it all closed up I am going to open the doors because I am 
concerned about my health.
    I just think, you know, there is eight million of these 
units in use around the country, very, very few complaints, if 
any, and I just think for us to call you in here and pound on 
you and infer that you are lying about your products and 
everything, I think is just unconscionable, and I want to thank 
you for being here, for being so forthright, and for providing 
an industry that helps people when they are in need and 
suffering like they did in Florida during the hurricanes and 
like they have done in places like Katrina in the south on the 
Gulf.
    Obviously, the chairman has a right to call a hearing on 
almost anything, but I am disappointed in much of the 
questioning that has gone on today, because it questions your 
integrity, and I don't think it should have been done.
    With that, I yield back.
    Chairman Waxman. Mr. Souder.
    Mr. Souder. Is Mr. Welch going to ask any more questions?
    Chairman Waxman. Why don't you just go ahead and take your 
second round?
    Mr. Souder. I would like to hear what other questions are 
before. I know the chairman has a right to summarize, but if 
Mr. Welch has additional questions I would like to reserve.
    Chairman Waxman. Let me ask you this. If I make a 
concluding statement, do you want to make a concluding 
statement?
    Mr. Souder. You get to make the concluding statement. I 
wanted to know if Mr. Welch had another round.
    Chairman Waxman. Do you wish to be recognized at this time?
    Mr. Welch. No.
    Chairman Waxman. OK.
    Mr. Souder. OK. I will just make my comments.
    Mr. Welch. Thank you.
    Chairman Waxman. So we will both make concluding 
statements?
    Mr. Souder. Yes.
    Chairman Waxman. OK.
    Mr. Souder. Do you want me to go first?
    Chairman Waxman. Whatever you want.
    Mr. Souder. Well, you are the chairman. You have a right to 
summarize. I just wanted to see whether you were going first.
    Chairman Waxman. Why don't you wait and hear what I have to 
say and you will have the last word about the whole thing.
    First of all, I want to ask unanimous consent that the 
staffs have discussed the release of documents and have reached 
a mutual understanding and so I ask unanimous consent that 
these documents be part of the record.
    Mr. Souder. Reserving the right to object, I merely want to 
say that, while I have some concerns, I really appreciate the 
majority working with us. I will withdraw my objection.
    Chairman Waxman. OK. Thank you.
    This is our second hearing on this issue of formaldehyde in 
these trailers. I thought it was the second hearing of the 
Congress, but it turned out that during the course of today's 
hearing we got a phone call, and that phone call was from a 
staff person who worked for this committee in 1981, and he told 
us there was a hearing at that time on the question of 
formaldehyde in trailers, and at that time, at the conclusion 
of the hearing the Members of Congress said to the FEMA and to 
HUD and to the Consumer Product Safety Commission and OSHA they 
ought to set a standard. They ought to set a standard for 
formaldehyde levels in trailers. That was 1981.
    So I agree with my Republican colleagues when they say this 
is a failure of Government. Government should have set 
standards. Government should have protected the public from the 
dangers from formaldehyde, and the Government failed. But I 
also think this is a failure of industry, because some of you 
did testing and you found that there was a problem and then 
that was the end of it. We didn't hear anything more. Some of 
you didn't want to test at all, even though reports were coming 
out in the press about high formaldehyde levels in trailers 
causing people to be sick.
    I do want everyone to understand when we heard about the 
fellow who said the smell is too bad, come and help me, I am 
wheezing and having all sorts of medical problems or symptoms, 
please, please, please help me, that was rare. Most people 
don't smell anything. But suddenly they have symptoms. They 
don't go to the manufacturer and say, I have symptoms, take 
your trailer back. They don't even know what is causing it.
    So Government should know what is causing it, because it is 
well established that formaldehyde can cause these symptoms, 
and I believe industry has a responsibility, as well, to know 
that if they are selling this product that it may cause health 
problems to those who are buying it.
    Testing by Mr. Shea's company showed high levels. Some of 
these levels were far above even the highest standard where 
there was a regulatory standard. They were in the hundreds and 
thousands of parts per billion. I think a manufacturer knowing 
this information had an obligation to make the product safer 
and to understand that perhaps there was a problem that needed 
to be corrected.
    I think the rest of you also had an obligation to do some 
testing, not to act as if you didn't know, therefore there is 
nothing required of you.
    Now, I am pleased that the four of you are in business. I 
am pleased that you have employees that have jobs with you. I 
am pleased that you have Members of Congress from your area 
that will vouch for you personally. I think you are entitled to 
make your profits, and even doubling of your salary in those 2 
years when you had the FEMA contract, Mr. Shea, for you and I 
think it was your brother. You are entitled to that. I don't 
begrudge any of that. I want you to be in business.
    But I think that when we have to abandon trailers, that it 
is not just the Government that should pay for it. I think 
there is some responsibility for the manufacturers, as well, 
because these levels should have been of concern.
    I know that some Members have acted like you are victims 
because you are simply asked to come here and answer questions. 
I think that those that really suffered are the people who are 
getting sick from formaldehyde in these trailers. I think they 
are victims of FEMA's incompetence. They were victims of 
manufacturers who didn't disclose what they knew about the 
formaldehyde dangers, as well.
    We will see where all of this goes. I am willing to 
entertain ideas for legislation. That is the purpose of our 
oversight hearings. But also to find out what really happened.
    I think that what happened is a disgrace on the part of the 
Government particularly, but is not an exoneration for the 
manufacturers who know or should have known or, in fact, did 
know that the trailers were not safe for those who were 
inhabiting them, and now the taxpayers have to be stuck with 
the bill.
    So those are my concluding comments. I thank you all for 
being here voluntarily and cooperating with us. I think that is 
to your credit.
    Now any comments you want to make to close off the hearing?
    Mr. Souder. I thank the chairman for his generosity. I 
wasn't trying to have the last views, but I appreciate that, 
because this industry is really critical to my defense, as well 
as to Mr. Donnelly's. I was at the Goshen Air Show Saturday and 
people kept coming up asking, do you think we are going to get 
our jobs back? We really want to work. They love working in 
this industry. We need to keep this industry going. They have 
worked hard to meet the emergency demand.
    We clearly today have kind of confused all sorts of things, 
but basically nobody wants to defend somebody getting sick. The 
challenge here is there is no evidence, even though it is a 
carcinogenic, at this point of, beyond basically itching, 
coughing, wheezing type things. This may be like peanuts: 
different people have allergic reactions. Clearly we need to be 
moving toward some sort of a warning standard as we do this 
research that different people react differently to this. That 
is at very minimal that should be there.
    HUD had a standard. They met the standard, as far as they 
knew. Questions came up and the company volunteered to try to 
test, even though FEMA could have done those tests, even though 
FEMA was at the plant from morning until afternoon. The test 
was not prohibitively expensive. The company tried to engage 
FEMA and FEMA wasn't interested. The incredible justified 
negative publicity about the Government's handling of Katrina 
and FEMA has now resulted in an over-reaction to make it 16 
parts, which is not achievable for emergency housing.
    I want to reiterate again that the 390 that was tested 
scientifically, not by the type of formaldehyde meter, but 
scientifically to the gold standard. In Louisiana, in southern 
Louisiana, trying to convert the 6.6 milligrams per meter, 
which is their high point, appears to convert to 4,000 parts 
per billion for the highest of a site-built house in the 
region. This isn't a question just of manufactured housing, of 
travel trailers. It is a fundamental question about the 
materials, how they interact by region, and we need to have a 
scientific approach to this. Given the fact that we do not have 
that evidence of how much is even in the particular wood here 
versus in other homes in that region, given the ambient air 
standard on the Hancock study, which itself was not precisely 
the same type of thing, it is my belief unfair to suggest that 
the manufacturers bear responsibility when the science is, at 
the very least, very conflicted. It is not clear that every 
home in the region isn't hitting--certainly if 390 is the mean, 
or the average, that means that a significant percentage of 
every house in at least, given what we know now, in Louisiana 
doesn't meet the standard. And we aren't asking for all our HUD 
houses to be backed. Private owners aren't asking to be backed. 
That has been my concern with this industry, not that we 
shouldn't be trying to learn the danger to individuals.
    I look forward to working with the chairman in the future.
    Thank you.
    Chairman Waxman. Thank you very much, Mr. Souder. Thanks 
for all the witnesses' participation.
    That concludes our hearing and we stand adjourned.
    [Whereupon, at 1:55 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Diane E. Watson and Hon. 
Bill Sali follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
